<html>
<title> - OVERSIGHT HEARING ON WHY DOES THE U.S. FISH AND WILDLIFE SERVICE WANT TO EXPAND THE BOUNDARIES OF THE CHICKASAW AND LOWER HATCHIE NATIONAL WILDLIFE REFUGES IN TENNESSEE AND AT WHAT COST?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




    WHY DOES THE U.S. FISH AND WILDLIFE SERVICE WANT TO EXPAND THE 
   BOUNDARIES OF THE CHICKASAW AND LOWER HATCHIE NATIONAL WILDLIFE 
                REFUGES IN TENNESSEE AND AT WHAT COST?

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, June 20, 2013

                               __________

                           Serial No. 113-25

                               __________

       Printed for the use of the Committee on Natural Resources




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

81-617 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Glenn Thompson, PA                   Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
 Vacancy                             Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio
                                 ------                                



















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 20, 2013..........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress 
      from the Territory of the Northern Mariana Islands.........     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Aiken, Jeff, Vice President, Tennessee Farm Bureau Federation    15
        Prepared statement of....................................    16
    Ashe, Hon. Daniel M., Director, U.S. Fish and Wildlife 
      Service, Department of the Interior........................     8
        Prepared statement of....................................     9
        Questions submitted for the record.......................    42
    Kelley, Charlotte, Owner, Burlison Gin Company, Burlison, 
      Tennessee..................................................    19
        Prepared statement of....................................    20
    Patrick, Steve, Assistant Executive Director, Field 
      Operations, Tennessee Wildlife Resources Agency............    13
        Prepared statement of....................................    14
        Questions submitted for the record.......................    46
    Schuh, Hon. Rod, County Mayor, Lauderdale County, Tennessee..    21
        Prepared statement of....................................    22

Additional materials submitted for the record:
    Coats, Virgil and Joyce, Burlison, Tennessee, Letter 
      submitted for the record...................................    48
    Conyers, Gilbert M., Ripley, Tennessee, Prepared statement of    48
    Cook, Randy, U.S. Fish and Wildlife Service, Department of 
      the Interior, Dyersburg, TN, Letter submitted for the 
      record.....................................................    49
    Davis, Larry, Covington, Tennessee, Prepared statement of....    49
    Featherstone, Bonnie, Prepared statement of..................    49
    Knox, James F, Letter submitted for the record...............    49
    Lauderdale County Enterprise, Ripley, Tennessee, March 21, 
      2013, Did You Know?........................................    50
    Lauderdale County Environmental & Economic Plan..............     4
    Lauderdale County Government, Resolution in Opposition to the 
      Proposed 120,000 Acre Expansion of Chickasaw and Lower 
      Hatchie National Wildlife Refuges in Lauderdale County and 
      Surrounding Counties.......................................    51
    List of material retained in Committee's official files......    56
    Phillips, Jeff, Covington, TN, Prepared statement of.........    52
    Refuge data charts, submitted for the record by the Honorable 
      John Flemming..............................................    54
    Templeton, David, Templeton Farms, Brighten Tennessee, Letter 
      submitted for the Record...................................    52
    Tennessee Soybean Association, Letter submitted for the 
      record.....................................................    53
    Threadgill, Diana, President and Executive Director, 
      Mississippi River Corridor, Letter submitted for the record     3
                                     


 
 OVERSIGHT HEARING ON WHY DOES THE U.S. FISH AND WILDLIFE SERVICE WANT 
 TO EXPAND THE BOUNDARIES OF THE CHICKASAW AND LOWER HATCHIE NATIONAL 
            WILDLIFE REFUGES IN TENNESSEE AND AT WHAT COST?

                              ----------                              


                        Thursday, June 20, 2013

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife Oceans, and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Duncan, and Sablan.
    Also present: Representative Fincher.
    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum. Good morning.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today at the Subcommittee, we'll examine the 
Fish and Wildlife Service's proposal to dramatically increase 
the size of the Chickasaw and Lower Hatchie National Wildlife 
Refuges in the State of Tennessee. This hearing is in response 
to a request from the distinguished gentleman from Frog Jump, 
Tennessee whose congressional district contains the two 
wildlife refuges and the four counties that will be directly 
impacted by the Federal Government's proposed acquisition of 
120,000 acres of private property.
    There are currently seven national wildlife refuges in the 
State of Tennessee. Together they comprise 120,959 acres of 
land. Unlike many States, each of these refuges is open to the 
public, and thousands of Tennesseans enjoy the opportunity to 
hunt, fish, and observe wildlife.
    However, just like the rest of the refuge system, these 
refuges have not been properly maintained. In fact, based on 
the Service's own records, there are 437 deferred operations 
and maintenance projects that will cost $98 million to fix. 
Forty-nine of these projects are listed in the highest priority 
category of ``mission critical'' projects.
    Despite this existing backlog, the southeast region of the 
Fish and Wildlife Service has decided that it wants to buy 
70,116 acres of agricultural lands; 27,060 acres of bottomland 
hardwood forest; 9,307 acres of wooded swamp in Dyer, Haywood, 
Lauderdale, and Tipton Counties.
    While this acquisition process may take years to complete, 
we do know that the service wants to buy this land using its 
fee title authority. These acquisitions will cost taxpayers 
tens of millions of dollars. Locally affected counties will not 
be justly compensated for the loss of their tax base. The 
number of backlog projects will increase, and when the process 
is completed, there will be a huge publicly owned land unit 
made up of three wildlife refuges, two State wildlife 
management areas, a State park, and a State forest.
    What we also know is that regardless of our national debt, 
the Obama Administration will not stop its insatiable obsession 
to acquire more and more private property coupled with a lack 
of a comprehensive strategy to maintain those lands into the 
future. I reject the argument that only the Federal Government 
can ensure that these lands in Tennessee or anywhere else in 
the United States will be protected in the future.
    During the course of this hearing, I want to find out 
whether the local communities have embraced this refuge 
expansion, what it will cost the taxpayers to buy 120,078 acres 
of private property, how long the acquisition process will 
take, why fee title and not conservation easements are being 
used, and how this will affect the economies of the four 
effected counties in Tennessee.
    I am now pleased to recognize the Ranking Minority Member, 
Congressman Sablan, for any statement he would like to make.
    [The prepared statement of Dr. Fleming follows:]
      Prepared Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
    Good morning, Today the Subcommittee will examine the Fish and 
Wildlife Service's proposal to dramatically increase the size of the 
Chickasaw and Lower Hatchie National Wildlife Refuges in the State of 
Tennessee.
    This hearing is in response to a request from the distinguished 
gentleman from Frog Jump, Tennessee, whose Congressional District 
contains the two wildlife refuges and the four counties that will be 
directly impacted by the Federal Government's proposed acquisition of 
120,000 acres of private property.
    There are currently seven national wildlife refuges in the State of 
Tennessee. Together, they comprise 120,959 acres of land. Unlike many 
States, each of these refuges is open to the public and thousands of 
Tennesseans enjoy the opportunity to hunt, fish and observe wildlife.
    However, just like the rest of the refuge system, these refuges 
have not been properly maintained. In fact, based on the Service's own 
records, there are 437 deferred operations and maintenance projects 
that will cost $98 million to fix. Forty-nine of these projects are 
listed in the highest priority category of ``mission critical'' 
projects.
    Despite this existing backlog, the Southeast Region of the Fish and 
Wildlife Service has decided that it wants to buy 70,116 acres of 
agricultural lands, 27,060 acres of bottomland hardwood forest and 
9,307 acres of wooded swamp in Dyer, Haywood, Lauderdale and Tipton 
Counties.
    While this acquisition process may take years to complete, we do 
know that the Service wants to buy this land using its fee title 
authority. These acquisitions will cost taxpayers tens of millions of 
dollars. Locally affected counties will not be justly compensated for 
the loss of their tax base, the number of backlog projects will 
increase, and when the process is completed, there will be a huge 
publicly owned land unit made up of three wildlife refuges, two State 
wildlife management areas, a State park and a State forest.
    What we also know is that regardless of our national debt, the 
Obama Administration will not stop its insatiable obsession to acquire 
more and more private property, coupled with a lack of a comprehensive 
strategy to maintain those lands in the future. I reject the argument 
that only the Federal Government can ensure that these lands in 
Tennessee or anywhere else in the United States will be protected in 
the future.
    During the course of this hearing, I want to find out whether the 
local communities have embraced this refuge expansion, what it will 
cost the taxpayers to buy 120,078 acres of private property, how long 
the acquisition process will take, why fee title and not conservation 
easements are being used, and how this will affect the economies of the 
four affected counties in Tennessee.
    I am now pleased to recognize the Ranking Minority Member, 
Congressman Sablan, for any statement he would like to make.
                                 ______
                                 
    Mr. Sablan. Thank you very much, Mr. Chairman. And good 
morning, everyone.
    Mr. Chairman, before I begin, I'd like to ask for unanimous 
consent to enter into the record testimony from the Mississippi 
River Corridor Tennessee 501(c)3 nonprofit organization and a 
summary of the Lauderdale County environmental and economic 
plan, please.
    Dr. Fleming. Hearing no objection, so ordered.
    Mr. Sablan. And thank you, Mr. Chairman.
    [The information follows:]
 Letter Submitted for the Record From Diana Threadgill, President and 
                           Executive Director
                        Mississippi River Corridor,
                                         Memphis, TN 38112,
                                                     June 17, 2013.
The Honorable John Fleming, Chairman,
The Honorable Gregorio Kilili Camacho Sablan, Ranking Member,
U.S. House of Representatives,
Subcommittee on Fisheries, Wildlife, Oceans, and Insular Affairs,
Washington, DC, 20515.
    Dear sirs: I am writing today to comment on the proposed Land 
Protection Plan and Environmental Assessment for the Expansion of the 
Chickasaw and Lower Hatchie National Wildlife Refuges by the U.S. Fish 
and Wildlife Service. We understand that a hearing about the plan will 
be convened this week in Washington, DC and wanted to send a few 
positive comments prior to your discussions.
    The Mississippi River Corridor--Tennessee (MRCT) is a 501(C)(3) 
nonprofit organization that works primarily on behalf of the six 
counties located on the Mississippi River along our western coast.
    Our mission is to identify, conserve and enhance the region's 
natural, cultural and scenic resources to improve the quality of life 
and prosperity in west Tennessee.
    For the past 2 years, the MRCT has been involved in developing a 
Lauderdale County Environmental and Economic Plan. Funding for this 
important plan has been provided by a grant from The McKnight 
Foundation based in Minneapolis, MN. Through the production of this 
plan and eventual implementation, the MRCT hopes to create a unique 
eco-tourism destination for visitors from around the United States . . 
. and the world.
    The concept and development of the Lauderdale County plan has been 
based on the fact that almost one-third of the county is owned and 
managed by our partner agencies, the U.S. Fish and Wildlife Service, 
the Tennessee Department of Environment and Conservation (TDEC) and the 
Tennessee Wildlife Resources Agency (TWRA). As Lauderdale County 
contains the most extensive bottomland in the Corridor, has no levy and 
floods on an annual basis, it is a perfect location for outdoor 
enthusiasts, birders, hikers, nature lovers and travelers seeking rare 
locations from around the world.
    The only amenities currently missing in the County are eco-tourism 
lodging facilities, outfitters, and hospitality professionals. However, 
when the plan is completed this fall, we will have identified those 
missing links and the funding needed to create a significant economic 
development venture. (Please see article attached)
    The MRCT considers the recent (draft) plan that has been developed 
by U.S. Fish and Wildlife Service to be a positive step forward as the 
expansion of their land acquisition boundary would be extended to 
include parts of the Hatchie River--the only unchannelized river in 
west Tennessee and a designated Scenic River. The Nature Conservancy 
has rated the Hatchie River as one of the top 10 natural wonders in the 
country. Our organization plans to create a unique water trail on the 
river and apply for a new National Water Trail designation from the 
National Park Service next year. However, we need additional land to 
the river for access and more ramps. The area is an undiscovered 
wonderland and has the potential to bring thousands (possibly millions) 
of dollars into the economies of Lauderdale and Tipton Counties.
    We certainly understand the expressed concerns by large land owners 
and farmers about the proposed plan by the U.S. Fish and Wildlife 
Service. However, the MRCT believes that the conservation of this 
targeted area is critical for future development as an eco-tourism 
visitor destination and will also provide additional wildlife habitat 
for one of the largest migrating bird fly-a ways in the world.
    It is also our understanding that the proposed land would only be 
purchased from willing landowners for the fair market land value. And 
we have also heard of complaints that current properties owned by the 
U.S. Fish and Wildlife Service are not being managed properly, but we 
haven't found that to be the case at all. In regard to the land being 
taken off the tax rolls, we have learned that Lauderdale County is paid 
a significant amount of money for this shortfall in revenue.
    When the MRCT plan moves forward toward implementation, we assure 
you that the County will make up any lost revenue by collecting large 
amounts of money from visitors to the area. The table has been set in 
Lauderdale County with a beautiful new Town Square in Ripley and the 
only amenities needed are some additional restaurants and shops. Those 
business ventures will come in if we can create a unique outdoor 
destination. It's all there in Lauderdale County--just waiting for a 
visionary plan and the right partners to pull all the assets together 
into a realistic financial opportunity for investors.
    We believe in the Mississippi River Corridor in Tennessee and have 
dedicated many years and significant financial resources toward its 
economic success. Please rest assured that positive work is being 
accomplished for economic growth in Lauderdale County and the Corridor.
    Our hope is that you will be open-minded and receptive to other 
(positive) opinions regarding the U.S. Fish and Wildlife Service plan. 
The huge economic opportunities and potential land conservation that 
could be accomplished by the U.S. Fish and Wildlife Service for ``human 
and wildlife habitat'' are unprecedented in scope and opportunity.
    Agriculture may currently be Tennessee's number one economic 
driver. However, tourism to our unique visitor destinations is number 
two and is predicted to surpassagriculture in the next 10 years.
    We need to provide for this coming industry growth by growing a 
sustainable foundation and outdoor playground for the next generation 
of Tennesseans, and most importantly, for our citizens nationwide.
            Sincerely yours,
                                          Diana Threadgill.
                                  President and Executive Director.
                                 ______
                                 
            Lauderdale County Environmental & Economic Plan
This Multi-Phase Phase Plan Will Create Greater Awareness of the 
        County's Unique Features
    On the Tennessee side the Chickasaw Bluffs run the length of the 
Mississippi River. At Memphis the Bluff butts up to the River (thus the 
city's nickname of Bluff City). However, as it progresses northward, 
the Bluff snakes back and forth from the river. Just north of the mouth 
of the Hatchic River the Bluff touches the Mississippi for the last 
time in Tennessee. It is here, in Lauderdale County, that a narrow 
strip of bottomland emerges that is bordered by the Mississippi River 
on the west and the Bluff on the east. From the Kentucky State line to 
the Mississippi line are some of the highest points around and afford 
commanding views of the Mississippi River alluvial forests, and large 
tracts of farmland that dot the landscape.
    Lauderdale County is the center of the bordering counties, and the 
keystone. According to John Threadgill, a member of the Board of 
Directors for the Mississippi River Corridor-Tennessee (MRCT), 
Lauderdale County is ``the diamond in the rough.'' This county 
possesses some of the most unique features of the six counties, 
including a very well-defined bluff and fertile bottom land. With 
Chickasaw Bluff No. 1 diverging from the river in Lauderdale County, 
close to 100,000 acres of alluvial bottom land is revealed (sparsely 
populated, heavily forested, and jointly private and publicly-owned). 
Tennessee Wildlife Resources Agency and U.S. Fish and Wildlife Service 
own vast tracts as well as large-scale farming operations owned by 
private citizens.
    Each of the six counties under the purview of MRCT is unique with 
its own characteristics, whether topographic, geographic, cultural, or 
historical. Lauderdale County is no exception as there is no levee 
system so the soil is constantly renewed and recharged through flooding 
and silt washed downriver. It is fertile, yet unpredictable, as we 
learned with the late historic spring flooding of the Mississippi in 
2011. Numerous lakes make up the area as well and provide water, 
sustenance, and recreation for local wildlife, hunters, and anglers.
    The area seems idyllic, and it is. Part of the problem, though, 
says Threadgill, is that ``You have this bluff system, some great 
vistas, but there is not one designated overlook anywhere; there is no 
trail system that allows someone to experience that opportunity. There 
is no signage, nothing there that would tell someone what's right up 
the road that you can go look for.''
    As part of the Lauderdale County Plan, and with a grant from 
longtime partner The McKnight Foundation, the MRCT is conducting a 
three-phase plan. At its simplest, it's making people aware of what the 
county possesses. This will include, over time, new signage, road 
improvements, well-defined trails and overlooks, additional boat 
access, interpretive centers, and the enhancement and uniformity of 
current assets.
    As part of the study, MRCT is working closely with TWRA, US-FWS, 
Tennessee State Parks, Tennessee State Forests, the National Park 
Service, the Nature Conservancy and private landowners. The area, as it 
stands, is a blank slate and the challenge, says Threadgill, is to 
``come up with a master plan that tries to utilize what's down there 
and try to figure out a way to put it all together so that we actually 
have a product.''
    The project began 10 months ago, and the first phase has included 
meetings with focus groups made up of local citizens to help define 
exactly what it is that Lauderdale County has, and to map out where the 
assets are. ``What's interesting is that no one person really seems to 
have the complete knowledge of what's there,'' says Threadgill, and the 
meetings and expertise of those involved have led to a much larger 
picture of the area's characteristics.
    Threadgill says Phase Two will include a more detailed conceptual 
outline of what can be done to make the area more attractive for 
visitors and result in a cohesive plan that can be used as a blueprint. 
Phase Three is implementation, though Threadgill is quick to point out 
that this is a far-reaching, almost timeless plan. ``The plan will be a 
living plan, it will be ongoing. What we want to do is get the ball in 
motion, to create the blueprint that can be used for every year going 
forward. It can be altered, it can be amended based on the changes of 
the political and economic landscapes; a plan that can work in 
perpetuity.''
    Part of that plan will include purchasing land to connect the upper 
reaches of the county with the lower. ``We're trying to connect them in 
corridors, so that it's not just one little piece here and one little 
piece there,'' says Ed Carter, director of the TWRA and an MRCT Board 
Director. ``When we buy tracts of land, we try to buy those that are 
contiguous to another piece that we have, so that, for the most part, 
we have a wildlife corridor.'' The loss of forestation within the lower 
Mississippi River, the main flyway for North America, and the resulting 
impact on habitat for migratory water fowl has been the impetus to the 
Lauderdale County plan. While adjoining States have as much at stake in 
the loss of such an ecosystem, Tennessee--and Lauderdale County in 
Particular--is looked upon as a focal point.
                                 ______
                                 

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
DELEGATE IN CONGRESS FROM THE TERRITORY OF THE NORTHERN MARIANA 
                            ISLANDS

    Mr. Sablan. The National Wildlife Refuge System protects 
representative pieces of many life sustaining ecosystems 
throughout the States and territories. This network of refuges 
provides essential habitats for protecting the biological 
diversity that is the property and common heritage of all 
Americans, and it is the only Federal land designated 
exclusively for the conservation of wildlife. Refuges also 
support hunting, fishing, and other recreational activities 
helping to preserve our cultural heritage and support local 
economies. Every single dollar invested in the refuge system 
returns an average of $4 to surrounding communities.
    In the Northern Mariana Islands, we value the Marianas 
Trench and the Mariana Arc of Fire National Wildlife Refuge. 
They are home to species ranging from reef-building corals to 
threatened sea turtles to unique deep sea animals. Protecting 
these and other special places from destruction is critical to 
scientific discovery and natural resource management.
    Today we will hear from witnesses about the proposed 
expansion of the Chickasaw and Lower Hatchie National Wildlife 
Refuge in Tennessee. This refuge protects some of the most 
pristine, seasonally flooded bottomland hardwood forest in the 
world along some of the few stretches of the Mississippi River 
and over the Mississippi River and its tributaries that have 
not been channelized or dammed.
    We have previously discussed a National Wildlife Refuge 
System in this Committee, most recently just 2 months ago, and 
the same three misconceptions seem to come up again and again.
    The first misconception is that there is too much land in 
the National Wildlife Refuge System. In truth, less than 1 
percent of the land area of the contiguous United States is in 
a refuge. Twice as much of our Federal land is leased for 
exploitation of oil and gas reserves, and nearly nine times as 
much is leased for livestock grazing. Despite this relatively 
small investment, these refuges provide world class recreation 
opportunities to fish, hunt, and observe wildlife to 44 million 
visitors a year and generate $1.7 billion in sales annually for 
local businesses.
    The second misconception is that expanding existing refuges 
or creating new ones is bad public policy. Yes, due to years of 
underfunding the refuge system, there is a maintenance backlog. 
But we must continue to invest in the future health of our 
country's iconic landscapes. The habitat conserved in the 
refuge system is one of the best tools we have to recover 
endangered species, and more importantly, to prevent more 
species from becoming endangered in the first place.
    Just 2 weeks ago in this Committee's hearing on the 
Endangered Species Act, my friends across the aisle were 
wondering why more species had not recovered and been delisted. 
The answer is: Species must have a place to live in order to 
recover. The 3 federally listed species in at least 29 State-
listed species would benefit from expanding the Chickasaw and 
Lower Hatchie refuge preventing further declines and hopefully 
leading to eventual delisting.
    And the final, the third misconception is that the refuges 
are a waste of taxpayers' dollars. This is the issue that 
puzzles me most in this hearing since the refuges provide 
enormous benefits to taxpayers. In 2012, the entire refuge 
system cost $3.24 per acre while yielding $26.8 billion in 
ecosystem services.
    I hope just as the Chairman does that in today's hearing we 
can finally put these misconceptions about the refuge system to 
rest and move toward a more efficient and just distribution of 
Federal money, one that recognizes the true value, monetary and 
otherwise, of our natural resources and wildlife. I would like 
to listen to what the witnesses have to share with us this 
morning, and I would also like to welcome our colleague, Mr. 
Fincher, for joining us this morning.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]
  Prepared Statement of The Honorable Gregorio Kilili Camacho Sablan, 
Ranking Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular 
                                Affairs
    Thank you, Mr. Chairman.
    The National Wildlife Refuge System protects representative pieces 
of many life-sustaining ecosystems throughout States and the 
territories. This network of Refuges provides essential habitat for 
protecting the biological diversity that is the property and common 
heritage of all Americans, and it is the only Federal land designated 
exclusively for the conservation of wildlife. Refuges also support 
hunting, fishing, and other recreational activities, helping to 
preserve our cultural heritage and support local economies. Every 
dollar invested in the Refuge System returns an average of $4 to 
surrounding communities.
    In the Commonwealth of the Northern Mariana Islands, we value the 
Mariana Trench and the Mariana Arc of Fire National Wildlife Refuges. 
They are home to species ranging from reef building corals, to 
threatened sea turtles, to unique deep sea animals. Protecting these 
and other special places from destruction is critical to scientific 
discovery and natural resource management.
    Today, we will hear from witnesses about the proposed expansion of 
the Chickasaw and Lower Hatchie National Wildlife Refuges in Tennessee. 
These Refuges protect some of the most pristine seasonally-flooded 
bottomland hardwood forest in the world, along some of the few 
stretches of the Mississippi River and its tributaries that have not 
been channelized or dammed. We have previously discussed the National 
Wildlife Refuge system in this Committee--most recently, just 2 months 
ago--and the same three misconceptions seem to come up again and again.
    The first misconception is that there is too much land in the 
National Wildlife Refuge System. In truth, less than 1 percent of the 
land area of the contiguous United States is in a Refuge. Twice as much 
of our Federal land is leased for exploitation of oil and gas reserves, 
and nearly nine times as much is leased for livestock grazing. Despite 
this relatively small investment, these Refuges provide world-class 
recreational opportunities to fish, hunt, and observe wildlife to 44 
million visitors a year and generate $1.7 billion in sales annually for 
local businesses.
    The second misconception is that expanding existing Refuges or 
creating new ones is bad public policy. Yes, due to years of 
underfunding the Refuge system, there is a maintenance backlog--but we 
must continue to invest in the future health of our country's iconic 
landscapes. The habitat conserved in the Refuge system is one of the 
best tools we have to recover endangered species and, more importantly, 
to prevent more species from becoming endangered in the first place. 
Just 2 weeks ago in this Committee's hearing on the Endangered Species 
Act, my friends across the aisle were wondering why more species had 
not recovered and been delisted. The answer is, species must have a 
place to live in order to recover. Three federally listed species and 
at least 29 State listed species would benefit from expanding the 
Chickasaw and Lower Hatchie Refuges, preventing further declines and 
hopefully leading to eventual delisting.
    The third misconception is that the Refuges are a waste of taxpayer 
dollars. This is the issue that puzzles me most in this hearing, since 
the Refuges provide enormous benefits to taxpayers. In 2012, the entire 
Refuge system cost $3.24 per acre, while yielding $26.8 billion in 
ecosystem services.
    I hope that in today's hearing, we can finally put these 
misconceptions about the Refuge system to rest, and move toward a truly 
efficient and just distribution of Federal money--one that recognizes 
the true value, monetary and otherwise, of our natural resources and 
wildlife.
                                 ______
                                 
    Dr. Fleming. I thank the gentleman. I would now like to ask 
unanimous consent that the gentleman from beautiful downtown 
Frog Jump Tennessee, Mr. Fincher, be allowed to sit with the 
Committee and fully participate in the hearing.
    [No response.]
    Dr. Fleming. Hearing no objections, so ordered. All right. 
Thank you.
    We will now hear from our panel of witnesses, which 
includes The Honorable Daniel Ashe, Director, U.S. Fish and 
Wildlife Service; Mr. Steve Patrick, Assistant Executive 
Director, Tennessee Wildlife Resources Agency; Mr. Jeff Aiken, 
vice president, Tennessee Farm Bureau Federation; Ms. Charlotte 
Kelley, Burlison Gin Company; and The Honorable Rod Schuh, 
Mayor of Lauderdale County.
    The written testimony will appear in full in the hearing 
record. So I ask that you keep your oral statements to 5 
minutes as outlined in our invitation letter to you and under 
Committee rule 4(a). Our microphones are not automatic, so 
please press the button when you are ready.
    Also, just be aware that if the tip of the microphone is 
not close to you, we just can't year you. And you'll have to 
move it, unfortunately. We have a limited number of 
microphones. The light is very simple. You have 5 minutes to 
give your statement. You'll be under green light for 4 minutes. 
When it turns yellow, you have 1 minute, and if it turns red 
and you've not completed your statement, please wrap it up 
immediately because we do have limited time today. Remember 
that your statement will be in full in the record, so that 
should I think work for us today.
    Director Ashe, you are now recognized for 5 minutes, sir, 
to present the testimony of the U.S. Fish and Wildlife Service.

 STATEMENT OF THE HON. DANIEL M. ASHE, DIRECTOR, U.S. FISH AND 
          WILDLIFE SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Ashe. Good morning, Chairman Fleming, Ranking Member 
Sablan, Subcommittee members, Representative Fincher. I am Dan 
Ashe, the Director of the United States Fish and Wildlife 
Service, and I want to thank you for the opportunity to be here 
today.
    Chickasaw Hatchie and Lower Hatchie are part of the West 
Tennessee National Wildlife Refuge Complex, and it's an 
important part of the local economy. They welcomed over a half 
million visitors last year, and these visitors came to the 
refuge to hunt and fish and observe and photograph wildlife and 
simply to spend time in the great outdoors. The refuges help 
conserve wildlife for future generations of Americans. They 
protect important bottomland hardwood forests and other 
habitats for migratory waterfowl, as many as 300,000 ducks per 
year.
    The forest serves as important habitat for breeding land 
birds and migratory birds in the spring and the fall. And the 
service is proud to manage these areas on behalf of the 
American public and Tennesseans and to provide opportunities 
for people to continue to enjoy robust wildlife populations in 
the future. We've built this outstanding refuge complex over 
more than 50 years in partnership with the State of Tennessee 
and the local communities in the area. We built an excellent 
relationship with the State and local communities and the 
citizens of Tennessee, I believe.
    When it passed in 1997 and Harry Burroughs and I worked 
together on that legislation, Congress directed the service to 
grow the refuge system. The words of the act bear repeating. 
``The Secretary shall plan and direct the continued growth of 
the system in a manner that is best designed to accomplish the 
mission of the system to contribute to the conservation of the 
ecosystems of the United States, to complement the efforts of 
States and other Federal agencies to conserve fish and wildlife 
and their habitats and to increase support for the system and 
participation from conservation partners and the public.''
    In the case of the Tennessee refuges, we are doing exactly 
what Congress asked us to do. Congress specifically provided 
this service with the tools to do this, the authority to create 
and expand refuges, and I believe we've used this authority 
judiciously and appropriately. Congress also has the authority 
to create refuges and has also done so from time to time.
    When a refuge's acquisition boundary is expanded, it is 
after a thorough period of study and public engagement. We 
reach out to State agencies, local communities, congressional 
offices, conservation, recreation, and environmental groups to 
help shape the plan. The draft plan is provided to the public 
for review and comment. The final plan undergoes thorough 
review in our regional office and is approved ultimately by the 
Director of the Fish and Wildlife Service.
    It's important to be clear about the effect of an 
authorized acquisition boundary. It simply authorizes the Fish 
and Wildlife Service to purchase fee title or conservation 
easements from willing sellers. These purchases are subject to 
available funds, and a boundary does not result in new 
restrictions or regulations on landowners within or adjacent to 
the boundary.
    An expanded boundary does not lead to condemnation of 
private property or any form of coercive purchases. We only 
purchase from willing sellers, and usually the result is happy 
sellers and happy adjacent landowners whose property values 
tend to rise when they are next to national wildlife refuges. 
Land purchases occur very gradually, taking decades to even 
start to acquire significant portions of land within a 
boundary.
    In Chickasaw and Hatchie example, I'm sure we'll talk about 
this more. I think the important point that I would like to 
make is we have worked hand in glove with our State partner, 
the Tennessee Wildlife Resources Agency, who you will hear from 
today. Over 1,000 landowners were directly contacted by the 
service via mail to make sure that they knew of this proposal. 
Meetings were noticed in local papers, and we had good 
attendance at local public hearings and meetings and good 
opportunity for the public to participate. And that is an 
ongoing process.
    I believe we have used our congressional-granted authority 
properly and appropriately over the years and decades to create 
a vibrant National Wildlife Refuge System, one that is of great 
benefit to the American public, to State and local economies, 
and I look forward to hearing the other testimony here today 
and answering any questions that the Subcommittee may have.
    [The prepared statement of Mr. Ashe follows:]
Prepared Statement of The Honorable Daniel M. Ashe, Director, U.S. Fish 
            and Wildlife Service, Department of the Interior
    Good morning Chairman Fleming, Ranking Member Sablan, and members 
of the Subcommittee, I am Dan Ashe, Director of the U.S. Fish and 
Wildlife Service (Service) within the Department of the Interior. I 
appreciate the opportunity to testify before you today regarding the 
proposed expansion of Chickasaw and Lower Hatchie National Wildlife 
Refuges in the State of Tennessee.
                    national wildlife refuge system
    The mission of the National Wildlife Refuge System (Refuge System) 
is to administer a national network of lands and waters for the 
conservation, management and, where appropriate, restoration of the 
fish, wildlife and plant resources and their habitats within the United 
States for the benefit of present and future generations of Americans. 
Encompassing more than 150 million acres of land and water, the Refuge 
System is the world's premier network of public lands devoted solely to 
the conservation of wildlife and habitat. The Refuge System preserves a 
diverse array of land, wetland, and ocean ecosystems--from Guam, 
American Samoa, and other remote Pacific islands, north to the high 
arctic of northern Alaska, east to the rugged coastline of Maine and 
south to the tropical U.S. Virgin Islands. National wildlife refuges 
are found in every U.S. State. In total, the Refuge System now contains 
561 refuges.
    The Refuge System offers about 47 million visitors per year the 
opportunity to fish, hunt, observe and photograph wildlife, as well as 
learn about nature through environmental education and interpretation. 
With its widespread presence and history of working with partners, the 
Refuge System also plays a key role in supporting innovative, 
community-level efforts to conserve outdoor spaces and connect people 
with nature.
    In addition to conserving America's great wildlife heritage, the 
Refuge System is an important part of local economies. The presence of 
a national wildlife refuge in a community often offers significant 
economic benefits in the form of jobs and visitor spending in local 
stores, hotels, and service stations. As noted in a resolution 
supporting National Wildlife Refuge Week passed by the Senate in 
September 2012, for each dollar appropriated to the Refuge System, 
national wildlife refuges generate about $4 in economic activity, 
totaling nearly $1.7 billion and helping sustain 27,000 jobs in local 
communities.
                        land protection process
    The Service uses land protection planning to study opportunities to 
conserve land, including by adding it to the Refuge System. This 
process is mandated by the National Wildlife Refuge System 
Administration Act of 1966 (sect 4(4)(C)), which directs the Secretary 
of the Interior, acting through the Service, to ``plan and direct the 
continued growth of the System in a manner that is best designed to 
accomplish the mission of the System, to contribute to the conservation 
of the ecosystems of the United States, to complement efforts of States 
and other Federal agencies to conserve fish and wildlife and their 
habitats, and to increase support for the System and participation from 
conservation partners and the public.''
    If a Land Protection Plan is approved, there is an authorized 
acquisition boundary for the refuge. This public process applies to 
newly authorized refuges as well as to expanded acquisition boundaries 
for existing refuges. It is important to be clear about the effect of 
an authorized acquisition boundary: it authorizes the Service to 
purchase fee title or conservation easements within that boundary. It 
is our policy and our practice to acquire land from willing sellers. 
Further, such purchases can be made only if funding is available 
through Congressional appropriations or through the Migratory Bird 
Conservation Commission, providing direct mechanisms for accountability 
and control. Inclusion within an approved refuge boundary confers no 
Federal authority or regulatory requirements on the landowner. It does 
provide landowners within the boundary another option for how they use 
their land (i.e., they can sell to the Government to have it become 
part of the Refuge System).
    Conserving wildlife through land protection is a transparent, 
public, and participatory process, founded on scientific data, driven 
by our mission to conserve habitat and ecosystems. We use the best 
scientific processes and data to identify gaps in the conservation 
estate--which we define as lands that are protected at local or 
landscape scales by private, State, or Federal partners. Once a 
conservation need is identified, a preliminary proposal is submitted to 
the Service's Director for approval to develop a detailed Land 
Protection Plan. Development of a Land Protection Plan is a public 
planning process, during which we reach out to State agencies, local 
communities, Congressional offices, recreation, conservation and 
environmental groups to inform and help shape the plan. The Service 
uses the best available scientific information to analyze the effects 
of the Land Protection Plan and alternatives on the physical, 
biological, social and economic environment. After a rigorous review 
process, the completed Land Protection Plan is submitted to the 
Director, who approves, requests modification, or rejects the proposal.
               public involvement in the planning process
    A fundamental value of the Service's planning process in the 
management of the Refuge System is public involvement. As such, we base 
our decision-making on understanding and in consideration of public 
interests. As part of our public planning process, the Service 
typically collects hundreds of comments from individuals and 
organizations. This feedback--ranging from comments addressing broad 
and long-term issues to specific and detailed strategies that could be 
used to achieve biological or public use objectives--is critical to the 
Service's development, evaluation and comparison of management 
alternatives.
    For example, public input shaped the establishment of the 
Everglades Headwaters National Wildlife Refuge and Conservation Area. 
When the Service engaged the public during the planning process, the 
River Ranch Property Owners Association, a group of local landowners, 
opposed the establishment of the refuge and conservation area, 
envisioning that the Service would close access to any purchased lands 
as other Federal agencies had done elsewhere in Florida. We actively 
engaged with the River Ranch community and established a level of trust 
and understanding after multiple meetings over the course of a year. 
The Service listened to their concerns and, as a result, reevaluated 
our initial proposal. Ultimately, we removed the River Ranch 
landholdings from the proposal while maintaining the conservation 
integrity of the project. The overall outcome of the discussions 
between the Service and the River Ranch community has led to 
understanding and support for the Everglades Headwaters project.
  chickasaw, lower hatchie and hatchie national wildlife refuges and 
                             their benefits
    The Chickasaw, Lower Hatchie, and Hatchie National Wildlife Refuges 
are located in west Tennessee's portion of the Mississippi Alluvial 
Valley and are part of the West Tennessee National Wildlife Refuge 
Complex. They welcomed over 500,000 visitors in 2012 alone. Chickasaw 
National Wildlife Refuge is located in Lauderdale County, Tennessee, 
adjacent to the Mississippi River. Of the 73,480 acres within the 
approved acquisition boundary for Chickasaw National Wildlife Refuge, 
the Service has purchased fee title in approximately 20,914 acres and 
manages an additional 5,388 acres of contiguous lands under a no-fee 
lease from the Tennessee Wildlife Resources Agency (TWRA), which brings 
the current total to 26,008 acres. Lower Hatchie National Wildlife 
Refuge is located approximately 18 miles west of Henning, Tennessee, at 
the confluence of the Hatchie and Mississippi Rivers in Lauderdale and 
Tipton Counties. Of the 12,270 acre acquisition boundary, the Service 
has purchased fee title in approximately 11,883 acres while an 
additional 1,873 acres of lands (Sunk Lake Public Use Natural Area) is 
managed under a no-fee lease from the Tennessee Department of 
Environmental Conservation. Hatchie National Wildlife Refuge is located 
in Haywood County, Tennessee, adjacent to the Hatchie River. The refuge 
owns all 11,556 acres within its current acquisition boundary.
    All three refuges were established under the authority of the 
Migratory Bird Conservation Commission to protect bottomland hardwood 
forests and adjacent habitats for migratory and wintering waterfowl. 
The bottomland hardwood forests of the Mississippi Alluvial Valley 
serve as important habitat for breeding landbirds and migratory birds 
in the spring and fall, and the Lower Mississippi Valley serves as the 
primary wintering ground for mid-continental waterfowl populations. 
Together, Chickasaw, Lower Hatchie, and Hatchie National Wildlife 
Refuges support wintering waterfowl population numbers exceeding 
300,000 dabbling ducks each year.
  proposed boundary expansion at chickasaw and lower hatchie national 
                            wildlife refuges
    The Service is considering a proposal to expand the acquisition 
boundaries for Chickasaw and Lower Hatchie National Wildlife Refuges to 
protect and restore high-quality bottomland hardwood forest habitat for 
waterfowl, deer, turkey, and many nongame species as well as places 
where the public can hunt, fish, and observe wildlife. The preliminary 
proposal encompasses approximately 120,078 acres of mostly un-leveed 
bottomlands of the Mississippi and Hatchie Rivers in Lauderdale, 
Tipton, Haywood, and Dyer Counties, Tennessee.
    Land acquisition remains a critical tool in safeguarding wildlife 
and habitat while providing opportunities for wildlife-dependent 
recreation. It is long-standing Service policy and practice to acquire 
lands from willing sellers. As a result, the Service enjoys generally 
exceptional community relations, and landowner support for refuge 
acquisitions.
    Consistent with the Service's commitment to decision-making rooted 
in consideration of public interests, the public process for this 
proposal began in December 2012 when the Service initiated a 2-month 
public scoping effort to seek broader input in shaping the proposal. 
The Service held public scoping meetings in Ripley, Tennessee on 
December 11, 2012 and in Brownsville on December 12, 2012. After fully 
considering public input the Service developed a draft land protection 
plan and provided it to the public for review and comment on February 
7, 2013. As part of this comment period, the Service held a public 
meeting on February 19, 2013 in Ripley, Tennessee.
                    operations and maintenance costs
    The Service, as part of its official charge from Congress to manage 
the Refuge System, has a mandate to ``. . . conserve fish, wildlife, 
and plants and their habitats . . ..'' One of the most effective ways 
to do this is to protect areas that hold the greatest value for 
wildlife. Investment in newly conserved properties provides more access 
for hunters, anglers, and wildlife watchers; creates jobs and economic 
benefits for local communities; increases survival of wildlife; and 
helps private landowners preserve their family lands and lifestyle, 
such as ranching, in perpetuity. Furthermore, consolidating fragmented 
lands often reduces operations and maintenance needs, thereby saving 
taxpayer dollars.
    Many new fee title or conservation easements acquired by the Refuge 
System are private inholdings within or immediately adjacent to an 
existing refuge parcel. These scattered and sometimes small inholdings 
can have a disproportionate and often adverse effect on the ability of 
a refuge to achieve its purpose. Strategic acquisitions of fee title or 
easements can significantly simplify management and reduce expenses 
related to signage, fencing, law enforcement patrols, legal permits, 
rights-of-way conflicts, fire-fighting, road maintenance, habitat 
management and restoration, and invasive species management. Such 
strategic acquisitions help the Service meet important conservation 
objectives.
    The Service is diligently working to put available funding for 
operation and maintenance of the Refuge System to its best use. We will 
apply available funds by setting priorities, and continuing to 
collaborate with State, Federal, and private partners and volunteers to 
maximize shared conservation benefits. The Refuge System continues to 
effectively manage its deferred maintenance backlog by continuing to 
refine its condition assessment process, using maintenance action 
teams, actively pursuing local partnerships, carefully prioritizing 
budgets, and disposing of unneeded assets. As a result, the backlog 
declined by $300 million from fiscal year (FY) 2010 to 2012, totaling 
$2.4 billion at the end of FY 2012 for a $26.5 billion portfolio of 
constructed assets on Refuge System lands totaling 150 million acres. 
The condition of the overall portfolio has improved while mission 
critical needs are being met.
    The six refuges in Tennessee compete for the annual funding that 
Congress provides to rehabilitate or replace the highest priority 
maintenance or operational needs on each refuge. Many of those projects 
that are funded are completed by refuge staff to minimize costs and 
others are contracted out to the lowest bidder. As these projects are 
completed, they are reducing the operations and maintenance backlogs on 
these six refuges.
    Land acquisition associated with the proposed expansion of the 
Chickasaw and Lower Hatchie National Wildlife Refuge would be expected 
to occur slowly due to limited funding and competing needs for other 
priority land acquisition throughout the Nation. Over the next 10 
years, the projected increase from lands acquired in this proposed 
120,000 acre expansion area would likely be less than 10,000 acres and 
have minimal impacts to current operational or maintenance backlogs. 
There are three staffed refuges within this proposed area and they 
would assume the management oversight of these additional lands with 
minimal costs.
                               conclusion
    Thank you for the opportunity to testify before the Subcommittee 
today, and for your continued support of the National Wildlife Refuge 
System. I would be pleased to answer any questions you may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Ashe. A hearing advisory--we're 
shortly to be called for votes. We're going to try to get 
through some more testimony. It will probably take us about an 
hour to get through votes, and then we'll reconvene. So we just 
want you to stand ready and make sure you don't drift too far 
away so we can get back to work.
    Mr. Patrick, I now recognize you for 5 minutes, sir.

STATEMENT OF STEVE PATRICK, ASSISTANT EXECUTIVE DIRECTOR, FIELD 
        OPERATIONS, TENNESSEE WILDLIFE RESOURCES AGENCY

    Mr. Patrick. Thank you, Chairman Fleming, for the 
opportunity to address the Subcommittee.
    In 2003, the Tennessee Wildlife Resources Agency began 
identifying important lands across Tennessee. Part of that 
process included coordination with the U.S. Fish and Wildlife 
Service to plan strategically and at the landscape scale. That 
collaboration resulted in the 2003 important wildlife lands in 
Tennessee that identified 16 project areas across the State. We 
continue to work closely with the Fish and Wildlife Service 
from Real Foot Lake to Tennessee National Wildlife Refuge.
    In an effort to conserve wildlife, their habitats for the 
benefit of Tennesseans and visitors to Tennessee, the draft 
land acquisition plan for the proposed expansion and 
acquisition boundaries for Chickasaw and Lower Hatchie National 
Wildlife Refuges was identified in that plan as important 
wildlife lands.
    The resulting boundaries provide direction for long-term 
planning and will create the opportunity to manage the natural 
resources of this area at a landscape scale and allow TWRA and 
the U.S. Fish and Wildlife Service to operate in project areas 
for conservation of natural resources without duplication of 
effort.
    The reason we identified these areas as important wildlife 
lands is that the Hatchie River is the only river system in 
west Tennessee that has not been impounded or channelized. 
Protecting the river and the adjacent properties will benefit 
numerous birds, mammals, fish, and mussel species. Chickasaw 
and Lower Hatchie National Wildlife Refuges are north and south 
of our J.M. Tully Wildlife Management Area and could provide a 
significantly large ecosystem where fish and wildlife would 
have corridors and connected habitats to facilitate migration 
and genetic interchange within those species enabling them to 
adapt to future and environmental changes.
    We speak of conserving natural resources. The Fish and 
Wildlife Service, like the Tennessee Wildlife Resources Agency 
manages working landscapes. Farming and forest management are 
tools that we both use to meet our management objectives. In 
most cases, these practices are implemented through contracts 
with people in the surrounding community. Although the 
objectives on the land may be different, the actual practices 
carried out on the land can be very similar to what happens on 
private property. The scale of the practices will be the 
difference.
    Our concern for the conservation of natural resources in 
this area stems from long-range modeling that indicates rural 
counties in west Tennessee will continue to experience 
urbanization. If some of the projections for urban growth by 
2060 are realized, Tipton County could add 22,000 acres of 
urban lands; Lauderdale County could add 16,000 acres of urban 
lands; Dyer County could add 37,000 acres of urban lands. Most 
of this change is expected to move northward from Shelby County 
through Covington, Henning, Ripley, and Dyersburg. Urbanization 
at this scale will lead to fragmentation or loss of critical 
wildlife habitats and agricultural lands.
    As urbanization of rural counties of Tipton, Lauderdale, 
and Dyer changes the landscape of those counties, the continued 
urbanization of Shelby County will cause even more 
unanticipated pressures to come to bear on the landscapes of 
the area. One thing we do know is that as urban populations 
grow, the demand for outdoor recreation grows. Wildlife-
associated recreation in Tennessee generations over $2.9 
billion annually; 2.6 million people, residents and 
nonresidents, participated in hunting, fishing, and wildlife 
viewing in 2011.
    Having areas like the Chickasaw National Wildlife Refuge, 
Lower Hatchie National Wildlife Refuge, and J.M. Tully Wildlife 
Management Area will attract people interested in outdoor 
recreation. The important thing to understand about this 
proposal is that the expanding acquisition boundaries will not 
obligate landowners to change their current or long-term goals 
for their property. In fact, it will expand their options.
    For those who are not interested in changing what they're 
doing on the land, nothing changes. Both current and future 
landowners interested in making changes will have the option of 
selling their property to anyone they choose and entering into 
conservation easements and continuing to work the land or sell 
the land to the Fish and Wildlife Service. If the boundaries 
are not expanded, these options will be unavailable to the land 
owner.
    Thank you, Mr. Chairman, for the opportunity to address the 
Committee.
    [The prepared statement of Mr. Patrick follows:]
  Prepared Statement of Steve Patrick, Assistant Executive Director, 
         Field Operations, Tennessee Wildlife Resources Agency
    Thank you Chairman Fleming, for the opportunity to address the 
Subcommittee.
    The Tennessee Wildlife Resources Agency worked with the U.S. Fish 
and Wildlife Service on the Draft Land Protection Plan for the proposed 
expansion of the acquisition boundaries for Chickasaw and Lower Hatchie 
National Wildlife Refuges. This expansion will create the opportunity 
to conserve valuable riverine and wetland habitats.
    The establishment of these boundaries will address the conservation 
of fish and wildlife in an area identified by the Tennessee Wildlife 
Resources Agency as ``Important Wildlife Lands in Tennessee''. The 
collaboration on the draft plan allows for the strategic focus of both 
TWRA and USFWS on lands that are important for conservation without 
duplication of effort.
    The Hatchie River is the only river system in west Tennessee that 
is not impacted by impoundment or channelization. The protection of 
this river and the adjacent property will benefit numerous mammals, 
fish, and mussel species.
    Chickasaw and Lower Hatchie National Wildlife Refuges are north and 
south of our J.M. Tully Wildlife Management Area and could provide a 
significant ecosystem where fish and wildlife would have corridors and 
connected habitats to facilitate migration and genetic interchange of 
those species, enabling them to adapt to future environmental changes.
    If some of the projections for urban growth by 2060 come about, the 
conservation of these habitats will be critical. Tipton County could 
add 22,000 acres of urban lands and become 14 percent urban. Lauderdale 
County could add 16,000 acres of urban land and become 10 percent urban 
and Dyer County could add 37,000 acres of urban land becoming 15 
percent urban. Urbanization at this scale will lead to fragmentation or 
loss of critical wildlife habitats and agricultural lands.
    As urbanization of the rural Counties of Tipton, Lauderdale, Dyer 
changes the landscape of those counties, the continued urbanization of 
Shelby County will cause even more unknown pressures to be exerted on 
the landscape of this area. One thing we do know is that as the urban 
populations grow, the demand for outdoor recreation grows. Wildlife 
recreation in Tennessee generates over $2.9 billion, 2.6 million 
people, residents and nonresidents participated in hunting, fishing and 
wildlife viewing in 2011. Having areas like the Chickasaw NWR, Lower 
Hatchie NWR and J.M. Tully WMA will attract people who are interested 
in outdoor recreation. Outdoor recreation can have a meaningful 
economic impact in these counties.
    The expansion of the acquisition boundaries does not obligate any 
landowner to change their current or long term goals for their 
property. It in fact expands their options. For those who are not 
interested in changing what they doing on the land, nothing changes. 
For those current landowners or future land owners who are interested 
in making changes they will have the option of selling their property 
to anyone they choose, entering into a conservation easement and 
continuing to work some of the land or selling the land to the Fish and 
Wildlife Service. The important part of this is that without the 
expansion of the boundaries, two of these options do not exist for the 
landowner who would like to see their property fill a conservation 
need. The Fish and Wildlife Service could not entertain an offer by a 
willing seller if that property were outside the acquisition boundary.
    Given the many positive aspects of the Fish and Wildlife land 
acquisition process of offer fair market value, revenue sharing 
payments and continued working landscapes the Tennessee Wildlife 
Resources Agency the long term results of this expansion of the land 
acquisition boundaries will be beneficial.
    Thank you for the opportunity to address this proposal with the 
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Patrick.
    Mr. Aiken, I now recognize you for 5 minutes.

STATEMENT OF JEFF AIKEN, VICE PRESIDENT, TENNESSEE FARM BUREAU 
                           FEDERATION

    Mr. Aiken. Mr. Chairman, members of the Subcommittee, my 
name is Jeff Aiken. I'm a Tennessee farmer and vice president 
of the Tennessee Farm Bureau Federation. On behalf of the 
farmers of our State, we appreciate the opportunity to comment 
on the draft land protection plan and draft environmental 
assessment for the proposed expansion of Chickasaw and Lower 
Hatchie National Wildlife Refuges.
    My comments are divided into two parts. I will address the 
general policies within the plan that are in conflict with our 
Farm Bureau policy, and I will point out specific items in the 
proposal that are problematic to the agricultural community.
    The Tennessee Farm Bureau policy represents the best 
thought and judgment of the Farm Bureau membership of the 95 
counties in Tennessee. Two specific topics within the draft 
proposal conflict with our Farm Bureau policy. First, Tennessee 
Farm Bureau supports a no net loss of private lands, and 
Tennessee Farm Bureau strives to protect the rights of property 
owners adjoining public lands.
    Farm bureau members believe Government owns sufficient 
property. We support a national policy of no net loss of 
private lands. Our members believe the government should be 
required to release an equal dollar value of productive farm 
property for public sale whenever new lands are purchased by 
Government. In addition, the financial impact on the taxpayers 
should be considered when the Government buys land depriving 
the county of taxes, jobs, and other revenue. All these factors 
should be measured before other land is taken out of 
production.
    Furthermore, we support an option for current surface 
landowners to buy back perpetual conservation easements at 
market value. We commend the decision to purchase property only 
from willing sellers and not to use any imminent domain. 
However, caution should be exercised to ensure property 
adjoining or neighboring Fish and Wildlife Service's property 
is not negatively impacted. Farm bureau believes any action by 
Government that diminishes an owner's right to use his property 
is a taking of that owner's property.
    Drainage issues are a common problem of landowners who 
adjoin governmental property. The proposal advocates restoring 
floodplain hydrology on newly acquired lands where agricultural 
drainage is no longer needed. Landowners often experience 
difficulty maintaining adequate drainage due to land management 
decisions on the Government property. In addition, increased 
occurrences of trespassing and increased crop depredation due 
to wildlife are often experienced by landowners who adjoin 
wildlife refuges.
    We also have comments specific to problems for agriculture 
within the proposal. Number one, a lack of diversity in 
stakeholder involvement, limited alternatives, and finally, 
incomplete data related to local economic impact. The 120,078 
acre expansion plan lacks diversity in input. Agricultural 
property represents over 70,000 acres or nearly 60 percent of 
the proposed total expansion area, and yet only 1 of the 21 
groups has any agricultural involvement. Of the 7 agencies and 
14 private organizations from which input was sought in 
developing the plan, USDA is the only agricultural group 
represented.
    Although the service considered and evaluated three 
alternatives--alternative one being no action and alternative 
three, the acquisition of 294,000 acres--those are polar 
extremes. This seems to be designed to make alternative number 
two, the 120,000-acre acquisition, not only the preferred 
alternative, but appear more reasonable. We do not accept that 
strategy. We support what the plan disparagingly refers to as 
the status quo alternative, allowing the lands to remain in 
private ownership and in current land uses.
    Furthermore, we believe the desire of private landowners 
and existing Federal, State, and local environmental 
regulations have more than adequately protected habitats and 
natural resources in the area. The Hatchie River is the last 
major un-channeled tributary of the lower Mississippi River 
Basin and contains the largest forested floodplain in 
Tennessee. Because the entire Hatchie River has remained 
undammed, un-channelized, and un-levied, the natural processes 
that drive the ecosystem are functional in these areas. This 
occurred with private land ownership and not with public 
dollars.
    I appreciate the opportunity to be here with you today, and 
we encourage the agency to adopt alternative number one. Thank 
you.
    [The prepared statement of Mr. Aiken follows:]
Prepared Statement of Jeff Aiken, Vice President, Tennessee Farm Bureau 
                               Federation
    Mr. Chairman, members of the Subcommittee my name is Jeff Aiken. 
I'm a Tennessee farmer and the vice president of the Tennessee Farm 
Bureau Federation (TFBF). Tennessee Farm Bureau Federation represents 
more than 95 percent of the State's farmers. The most recent 
agricultural statistics survey reports Tennessee farmers collectively 
own 79,000 farms utilizing nearly 11.5 million acres of farm and 
forestland in this State. My office of Vice President is elected by the 
farmer members of our organization.
    On behalf of the farmers of our State, we appreciate this 
opportunity to comment on the Draft Land Protection Plan and Draft 
Environmental Assessment for the Proposed Expansion of Chickasaw and 
Lower Hatchie National Wildlife Refuges.
    My comments are divided into two parts. First, I will address the 
general policies within the plan that are in conflict with our Farm 
Bureau Policy. Secondly, I will point out specific items in the 
proposal that are problematic to the agricultural community.
                                 part 1
    The grassroots Farm Bureau members develop the Farm Bureau policy 
each year to guide the organization on issues of importance. The TFBF 
policy represents the best thought and judgment of the Farm Bureau 
membership in the 95 counties in Tennessee.
    Three specific topics within the Draft Land Protection proposal 
conflict with our Farm Bureau policy.

    1. TFBF supports a ``No Net loss of Private Lands''.
    2. TFBF protects the rights of property owners adjoining public 
lands.
    3. TFBF opposes the release of species of animals not currently 
established.
``No Net loss of Private Lands''
    Farm Bureau members believe Government owns sufficient property and 
therefore opposes the Fish and Wildlife Service acquiring additional 
land. We support a national policy of ``no net loss of private lands''. 
Recognizing the priorities of land protection and ownership may change 
over time, our members believe the Government should be required to 
release an equal dollar value of productive farm property for public 
sale whenever new lands are purchased by Government.
    In addition, the financial impact on the county and county 
taxpayers should be considered when the Government buys land depriving 
the county of taxes, jobs and other revenue. All these factors should 
be measured before other land is taken out of production.
    We support an option for current surface landowners to buy back 
Fish and Wildlife Service and Natural Resource Conservation Service 
perpetual conservation easements at market value.
Adjoining Private Land Owners
    We commend the Fish and Wildlife Service decision to purchase 
property from willing sellers only and not to use any eminent domain.
    However, caution should be exercised to insure property adjoining 
or neighboring Fish and Wildlife Service property is not negatively 
impacted. Farm Bureau believes any action by Government that diminishes 
an owner's right to use his property is a taking of that owner's 
property. Drainage issues are a common problem of landowners who join 
governmental property. The proposal advocates ``restoring flood plain 
hydrology on newly acquired lands where agricultural drainage is no 
longer needed.'' Landowners often experience difficulty maintaining 
adequate drainage due to land management decisions on the governmental 
property.
    In addition, increased occurrences of trespass and increased crop 
depredation due to wildlife are often experienced by landowners who 
adjoin wildlife refuges.
                                 part 2
Specific Comments to the Plan
    The following comments are specific to areas Farm Bureau opposes 
within the proposed plan.

    1. Lack of Diversity in Stakeholder Involvement
    2. Limited Alternatives
    3. Incomplete Data related to Local Economic Impact
Diversity in Stakeholder Involvement
    The 120,078 acre expansion plan lacks diversity in input from those 
most directly impacted. The largest extent of the proposed acquisition 
area is in agricultural land, with corn, cotton, and soybeans 
comprising the majority of the crops produced. Agricultural property 
represents over 70,000 acres or nearly 60 percent of the proposed total 
expansion area and yet only 1 of the 21 groups (USDA) have any 
agriculture involvement.
    A plan involving 70,000 agricultural acres deserves more input from 
the agricultural community than just USDA. Of the 7 agencies and 14 
private organizations from which input was sought in developing the 
plan, USDA is the only agriculture group represented. Apparently, no 
State agriculture input was sought.
    AGENCIES: Tennessee Wildlife Resources Agency, Tennessee Department 
of Environment and Conservation, U.S. Department of Agriculture, U.S. 
Geological Survey, U.S. Army Corps of Engineers, U.S. Environmental 
Protection Agency--Region 4, Tennessee Commission of Indian Affairs.
    PRIVATE ORGANIZATIONS: The Trust for Public Land, The Nature 
Conservancy, Ducks Unlimited, The Conservation Fund, Tennessee Wildlife 
Federation, Mississippi River Corridor, Tennessee Sierra Club--
Tennessee Chapter, Friends of West Tennessee Refuges, Tennessee Parks 
and Greenways Foundation, Chambers of Commerce for Dyersburg, Ripley, 
Covington,and Brownsville.
Limited Alternatives
    Although the Service considered and evaluated three alternatives, 
Alternative 1 (no action) and Alternative 3 (acquiring 294,544 
additional acres) are polar extremes. This seems to be designed to make 
Alternative 2 (120,078 acre acquisition) not only the preferred 
alternative but appear most reasonable. We do not accept this strategy.
    We support what the plan disparagingly refers to as the ``status 
quo'' alternative allowing the lands to remain in private ownership and 
in current land uses. Furthermore, we believe the desire of private 
landowners and existing Federal, State, and local environmental 
regulations (Clean Water Act, State water quality and pollution laws, 
etc.), have more than adequately protected the fish and wildlife 
habitats and natural resources in the area.
    This is supported by the fact that ``the Hatchie River is the last 
major un-channelized tributary of the Lower Mississippi River Basin 
that lies south of Cairo, Illinois, and contains the largest forested 
floodplain in Tennessee. Because this portion of the Mississippi River 
and the entire Hatchie River has remained undammed, un-channelized, and 
un-leveed, the natural processes that drive the ecosystem are 
functional in these areas.'' This occurred with private land ownership 
and not with public dollars.
Local Economic Impact
    Transparency of the cost of removing the acreage from tax roll is 
incomplete. The proposal maintains the land purchases are to be funded 
through the Migratory Bird Conservation Fund and the Land and Water 
Conservation Fund. Both are funded by user fees, Federal duck stamps, 
revenue from leasing offshore oil drilling rights, and other, non-tax 
sources. With our current Federal debt situation there are higher 
public need priorities for these earmarked dollars than for land 
purchases. The actual land acquisition represents only a fraction of 
the long term cost of land management and ownership. And, presumably 
public tax dollars do pay the salaries and infrastructure costs of the 
government entities managing the property.
    The local governments will become vulnerable to Washington gridlock 
as property is removed from local tax rolls and ``compensated'' by 
other dollars. Granted, the Federal law provides for payments to be 
made from the Refuge Revenue Sharing Act (16 U.S.C. 715s) to local 
governments for lands acquired by the Fish and Wildlife Service. The 
act requires revenue sharing payments to counties for purchased lands 
be based on the greatest of: (a) \3/4\ of 1 percent of the market 
value; (b) 25 percent of the net receipts; or (c) 75 cents per acre. 
These revenue sharing dollars actually come from the National Wildlife 
Refuge Fund which is funded from the dollars the U.S. Fish and Wildlife 
Service receives from products or privileges like timber sales, grazing 
fees, and right-of-way permit fees. These revenue sources are 
constantly at risk by groups opposing such uses of Federal lands. 
History shows on occasion refuge receipts have not been sufficient to 
make the county payments. Congress MAY appropriate funds to make up any 
shortfall in the revenue sharing fund. If the amount Congress 
appropriates is not enough, the units of local government receive a 
pro-rata share.
    We oppose subjecting local governments to such instability 
resulting from the loss of 120,078 acres from the local property tax 
base not to mention the lost economic benefit of production 
agriculture.
    We encourage the agency to adopt Alternative 1.
    Thank you for the opportunity to comment.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Aiken.
    Ms. Kelley, you are now recognized for 5 minutes.

  STATEMENT OF CHARLOTTE KELLEY, OWNER, BURLISON GIN COMPANY, 
                      BURLISON, TENNESSEE

    Ms. Kelley. Good morning, and thank you. My name is 
Charlotte Kelley. My husband and I own a cotton gin in Tipton 
County, Tennessee. I am a former Tipton County Commissioner, 
and I come here today about the Chickasaw and Lower Hatchie 
Refuge expansion plan.
    My first concern is the economic effect to Tipton County 
and to production agriculture. Production agriculture is the 
engine of our county's economy. Each year agriculture pumps 
close to $115 million into our economy. The loss of 
approximately 38,000 acres to Fish and Wildlife in Tipton 
County would be a loss of around $40 million annually. One-
fourth of our commercial agriculture could be taken out of 
production. Farmland in our county generates on average $8.13 
per acre in land taxes. In lieu of property taxes, Federal 
revenue sharing by Fish and Wildlife has been purported to be 
$3.73 per acre, but historical data from a neighboring county 
show it to be in the $2.90 range.
    My personal business concerns are paramount to my being 
here today. If the Chickasaw and Lower Hatchie initiative is 
successful, we can reasonably say that our business could lose 
up to one-half of our revenue due to a large portion of revenue 
coming from areas in the proposed plan. Granaries, seed 
cleaning operations would also suffer. Among others to 
exponentially lose revenue would be agricultural suppliers, 
parts businesses, banks, car dealers, mom and pop merchants, 
charities, schools, and a significant loss of agriculturally 
related jobs.
    My third concern is of utmost importance. You see, our 
local landowners who have experience with Fish and Wildlife 
have been impacted negatively. Owning land adjacent to Fish and 
Wildlife is a daunting prospect to private landowners. These 
encounters with them are quite similar to those we hear about 
on the news today concerning GSA, IRS, and NSA. There are 
existing documented court cases which show the aggressive 
behavior of Fish and Wildlife. I fear greatly that land will be 
acquired in a checkerboard fashion, and the holdout landowners 
will be subjected to intimidation by Fish and Wildlife.
    Three individuals in my community have spent in excess of 
$150,000 litigating against U.S. Fish and Wildlife in order to 
secure the original property boundary, to establish egress and 
ingress to their property, and to use their privately owned 
land for personal hunting purposes. The action of U.S. Fish and 
Wildlife appear to be attempts to passively force out these 
landowners. U.S. Fish and Wildlife also alter the land in a 
manner that limits drainage to the point that adjacent 
farmlands will be flooded and then most likely deemed wetlands. 
When these wetlands are no longer tillable, U.S. Fish and 
Wildlife have a greater likelihood of then acquiring the 
flooded lands.
    Another concern is that private landowners will be 
subjected to increased wildlife protection enforcement as a 
result of simply being adjacent or upstream from U.S. Fish and 
Wildlife. How will these bottomlands be changed by U.S. Fish 
and Wildlife, and what effects will these changes have on 
private landowners? How will it affect the proper drainage 
canals, roads, ditches, and pesticide use?
    Historically in our area, we have seen U.S. Fish and 
Wildlife more concerned about the private use of their land 
than properly maintaining the refuge for recreational use and 
to prevent harm to nearby landowners. Our Nation is $17 
trillion in debt, and agencies such as U.S. Fish and Wildlife 
are creating these massive land grabs that will cost our 
country billions. Should we not divert the use of these funds 
to repaying our national debt?
    The Chickasaw and Lower Hatchie Refuge expansion is just 
one of the many land acquisition initiatives that should be put 
on hold until our financial house is in order. I am neither a 
zealot nor an extremist. As a business woman, a county 
resident, mother, and grandmother, I only wish to call 
attention to an agency that can destroy an economy, the jobs, 
and the livelihoods of several rural counties in west 
Tennessee.
    One question keeps coming to my mind: Are the wishes of a 
group of environmentalists more important than the lives and 
livelihood of several thousand people in rural west Tennessee?
    Thank you for letting me be here.
    [The prepared statement of Ms. Kelley follows:]
 Prepared Statement of Charlotte Kelley, Owner, Burlison Gin Company, 
                          Burlison, Tennessee
    My name is Charlotte Kelley. My husband and I own a cotton gin in 
Tipton County, Tennessee. I am a former Tipton County Commissioner and 
I come here today about the Chickasaw and Lower Hatchie Refuge 
Expansion Plan.
                    detriment to our county economy
    My first concern is the economic effect to Tipton County and to 
production agriculture. Production agriculture is the engine of our 
county's economy. Each year agriculture pumps close to $115 million 
into our economy. The loss of approximately 38,000 acres to U.S. Fish 
and Wildlife in Tipton County would be a loss of around $40 million 
annually. One-fourth of our commercial agriculture would be taken out 
of production. Farmland in our county generates on average $8.13 per 
acre in land taxes. In lieu of property taxes Federal Revenue Sharing 
by the U.S. Fish and Wildlife has been purported to be $3.73 per acre 
but historical data from a neighboring county show it to be in the 
$2.60 per acre range and decreasing yearly.
                       personal business concerns
    My personal business concerns are paramount to my being present 
today. If the Chickasaw and Lower Hatchie initiative is successful, we 
can reasonably say that our business could lose up to one-half of our 
revenue due to a large portion of revenue coming from areas in the 
proposed plan. Graineries and seed cleaning operations would also 
suffer great losses. Among others to exponentially lose revenue would 
be agricultural suppliers, parts businesses, banks, car dealers, ``Mom 
and Pop'' merchants, charities, schools and a significant loss of 
agriculturally related jobs.
                  heavy hand of u.s. fish and wildlife
    My third concern is of utmost importance. You see, our local 
landowners who have experience with the U.S. Fish and Wildlife have 
been impacted negatively. Owning land adjacent to U.S. Fish and 
Wildlife is daunting to private land owners. These encounters are quite 
similar to those we hear about on the news concerning the GSA, IRS, and 
NSA. There are existing documented court cases which show the 
aggressive behavior of U.S. Fish and Wildlife. I fear greatly that land 
will be acquired in ``checker board'' fashion and the ``hold out'' 
landowners will be subjected to intimidation by U.S. Fish and Wildlife. 
Three individuals in my community have spent in excess of $150,000.00 
litigating against U.S. Fish and Wildlife in order to secure the 
original property boundaries, to re-establish egress/ingress to their 
property and to use their privately owned land for personal hunting 
purposes. The actions of USFW appear to be attempts to passively force 
these landowners out.
    U.S. Fish and Wildlife also alter the land in a manner that limits 
drainage to the point that adjacent private lands will be flooded and 
most likely deemed ``wetlands''. When these ``wetlands'' are no longer 
tillable, the U.S. Fish and Wildlife have a greater likelihood of then 
acquiring the flooded lands.
    Another concern is that private landowners will be subjected to 
increased wildlife protection enforcement as a result of simply being 
adjacent to or upstream from the U.S. Fish and Wildlife lands.
    How will these bottomlands be changed by U.S. Fish and Wildlife and 
what effects will these changes have on private land owners? How will 
it affect proper drainage, canals, roads, ditches, and pesticide use? 
Historically in our area, we have seen U.S. Fish and Wildlife more 
concerned about the private use of their land than how to properly 
maintain the refuge for public recreational use and to prevent harm to 
other nearby landowners.
    Our Nation is $17 trillion in debt and agencies such as U.S. Fish 
and Wildlife are creating these massive land grabs that will cost our 
country billions. Should we not divert the use of these funds to 
repaying our debt? The Chickasaw and Lower Hatchie Refuge Expansion is 
just one of many land acquisition initiatives that should be put on 
hold until our financial house is in order.
    I am neither a zealot nor an extremist. As a business woman, county 
resident, wife, mother, and grandmother, I only wish to call attention 
to an agency that can destroy an economy, and the jobs and livelihood 
of several rural counties in west Tennessee.
    One question keeps coming to mind. Are the wishes of a group of 
environmentalist more important than the lives and livelihood of 
several thousands of people in rural west Tennessee?
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Kelley. We're going to have our 
last testimony, and we'll immediately recess for votes and then 
return, and we'll get started immediately on questions.
    So Mr. Schuh, you're now recognized for 5 minutes, sir.

   STATEMENT OF THE HON. ROD SCHUH, COUNTY MAYOR, LAUDERDALE 
                       COUNTY, TENNESSEE

    Mr. Schuh. To all Committee members, thank you for this 
opportunity. I'm representing four counties today that will 
ultimately be affected by the 120,000-acre expansion, and they 
are Tipton, Haywood, Dyer, and Lauderdale, and of course we're 
on the Mississippi and Hatchie Rivers.
    After the public meetings, many citizens in these counties 
were either against the expansion or the massive size of the 
expansion. A petition was started opposing the plan. It was 
signed by 443 citizens. The Lauderdale county commission also 
passed a resolution asking for Chickasaw and Hatchie to be 
removed from the top 50 refuge target list. Opposition to the 
expansion State wildlife agency--opposition is that they 
currently own 45,000 acres, and they still have rights on 
another 55,000 acres.
    A second reason for opposition toward the expansion is the 
inclusion of the 46,900 acres of farmland and 23,000 acres of 
pasture grasslands. Common concerns are: Will the Government 
enact imminent domain; what about field drainage through the 
refuge; potential restrictions of agricultural pesticide 
runoffs. And I'd like to state that our farmers are 
conservatives, and we do worry about conservation. Farming is 
the main industry in my small county of 26,000 people, and we 
have a lot of high unemployment. We farm about 56 percent of 
the county, and our greenbelt tax relief consisting of farms 
all the way down to the wetlands is about 71\1/2\ percent of 
the county. The eventual loss of 23,500 acres in the 70,000 in 
our area can affect us by $42 million annually and our State 
and local taxes by over $4 million annually.
    As revenue and the economy dries up, of course the result 
is lost jobs. On the reimbursement issues, wildlife 
representatives tell our citizens that the Refuge Revenue 
Sharing Act allows the agency to offset the tax losses to the 
counties. Lauderdale County historical receipts related to the 
agency's payment of in lieu of taxes over the last 15 years 
show the payments received have never matched the total dollars 
authorized, and I've put in a historical chart. In the last 3 
years, our county has received 24.6 percent of the dollars 
authorized for the agency.
    I have two examples to add to the question of equal tax 
dollars. I have a 3,000-acre farm in my county. It's not 
greenbelt assisted, and the taxes on this one plot are about 
$42,000. If it were in the greenbelt, it would be approximately 
$21,000. And the Wildlife Agency's past 4 years' payment 
average of $3.18, we would equal approximately $9,900 or about 
$11,000 deficit to the greenbelt. The second example is a 
greenbelt farm with 168 acres ranging from farmland to 
woodlands. I'd get $1,053 in taxes compared to approximately 
$543 using the agency's past averages. My county's total 
greenbelt tax income dollars is approximately $1.1 million with 
196,000 acres from the greenbelt program. It averages to be 
$5.74. Yet if the expansion were to happen today, we'd lose 
$205,000 in taxes. Under the U.S. Wildlife's average of the 
last 4 years, we'd get a total of about $113,000 or we'd lose 
$91,000 to $100,000 a year.
    Please understand the $3.18 is only 25 percent of the 
authorized amount, and I've recently talked to the financial 
department of Wildlife Services in Colorado, and they indicated 
that this year's revenues are going to be downsized again. The 
basic point, after these examples is that in Lauderdale County, 
the agency is not living up to the statements about the Refuge 
Revenue Act and is not covering the equal lost tax dollars.
    U.S. Wildlife relies on Southwick studies showing how 
tourist dollars may offset lost tax revenues. They reported 
that Chickasaw had 78,500 visitors last year or 215 visits a 
day. My belief is that at least 75 percent of these visits are 
local people, and we are a small county. We don't have any 
attractions. We do have day trippers and day hunters from close 
proximities, but they go home without spending the dollars. In 
conclusion, fair ``in lieu of tax'' payments are very important 
to our county's budgets. And the overwhelming future problem is 
the loss to the local farm.
    [The prepared statement of Mr. Schuh follows:]
Prepare Statement of The Honorable Rod Schuh, County Mayor, Lauderdale 
                           County, Tennessee
    To all Committee members thank you for this opportunity to discuss 
the positive and negatives of the proposed expansion of the Chickasaw 
and Lower Hatchie National Wildlife Refuges.
    I am here representing four counties that will ultimately be 
affected by the proposed 120,000 acre expansion; they are Tipton, 
Haywood, Dyer and Lauderdale Counties that border the Mississippi, 
Hatchie and Forked Deer rivers.
    After the public meetings many citizens were either against the 
expansion all together or the massive size of the expansion. A petition 
was started opposing the plan and was signed by 433 Lauderdale County 
citizens, Lauderdale County Commission also passed a resolution asking 
U.S. Wildlife to remove Chickasaw and Hatchie from the top 50 refuge 
target list.
    A major reason for the opposition to the new 2013 expansion is 
twofold.

    1. At present there is a purchase program available to landowners 
            in the Mississippi and Hatchie River bottoms by the U.S. 
            Wildlife with an identified boundary of approximately 
            83,500 acres of land primarily in Lauderdale County that 
            consists of farm and forest land. The service currently 
            owns 27,967 acres in this boundary area identified as 
            Chickasaw and Lower Hatchie Refuge's. The State of 
            Tennessee owns an additional 17,000 acres in an adjacent 
            area for a total of 45,000 acres between the two agencies. 
            The 2013 proposal seeks an additional 120,078 acres with 
            35,781 of this land in Lauderdale County alone. The 
            remainder primarily affects Tipton and Haywood counties 
            along the Hatchie River.
    2. The second reason for opposition toward the 120,000 acre 
            expansion is the inclusion of 46,903 acres of agriculture; 
            row crop land along with 23,213 acres of agriculture 
            pasture grass land. This makes the farm land 58 percent of 
            the expansion. These prime bottom farming lands are 
            exceptionally fertile and referred to by the hill farmers 
            in our county as ice cream land. Farmers would love to 
            purchase this ground but they cannot afford to purchase 
            large tracts of land compared to the Government therefore 
            they do not feel it is fair competition. The common 
            questions arising in my county is how much Government land 
            is enough, will Government enact imminent domain in the 
            future. They also question drainage issues, beaver dams and 
            the potential restrictions of pesticide runoff.

    The citizens of west Tennessee appreciate the contributions that 
U.S. Wildlife has made to our land and wildlife habitat. We understand 
that some of the lowest bottom lands are blue mud and that farmland 
that holds large expansions of water should be converted over to 
natural habitat. What we have a hard time understanding is the reaching 
out for prime cropland in areas that don't flood or hold water on a 
continual basis. The Fish and Wildlife officials question since the 
land is in the 5 year flood why all the opposition.
                  financial impact to our communities
    Farming is the main industry in Lauderdale County. We have gone 
through the southern industrial expansions of the 1960s, 1970s, and 
1980s. Since the 1990s my county alone has lost 15 companies that hired 
between 100 to 2,000 people. Industry moving overseas has devastated 
our local economy and in 2009 my county reached 22 percent 
unemployment. Currently we vary over the year between 12 and 14 percent 
unemployment. Lauderdale County is the second poorest county per capita 
in the State of Tennessee with a negative forecasted population growth 
in the next 10 years. Farm revenue currently is the life blood to our 
economic quality of life. The population of Lauderdale County is 26,000 
people, not counting the State prison. We farm 170,000 acres or 56 
percent of the 305,000 acres in the county. Total farming and greenbelt 
tax relief property consisting of farms, forests, and wetlands is 
218,000 acres or 71.5 percent of the county.
    The eventual loss of an additional 23,500 acres of farmland in 
Lauderdale County and 70,000 acres to the region will significantly 
impact our tri-county economy. For example 1 year 70,000 acres of lost 
soybean production at 45 Bu/Acre <greek-e> $13.50 market price would 
equate to $42,525,000 of revenue to the local economy. State and local 
sales taxes would be affected by $4,146,188. The area also grows cotton 
and corn which would magnify the lost revenues and severely affect our 
local economy, schools, roads and government.
    When revenue in the economy dries up the result is lost jobs all 
over the region. From Ag related supply companies, Ag equipment 
dealers, to fuel, car and truck dealers all the way down to small 
retail shops.
    Many citizens in the public meetings remarked about the local tax 
effect and will they be affected. Fish and Wildlife representatives 
responded that the Refuge Revenue Sharing Act allows the agency to 
offset the tax losses by annually paying the county or local units of 
government an amount that often equals or exceeds that which would been 
collected from taxes if in private ownership.
    These statements bring up an interesting point related to the 
agencies payment of In Lieu of taxes over the last 15 years to 
Lauderdale County. Our records show that the payments received have 
never matched the totals authorized when compared to authorized 
dollars. A brief history of the payments to Lauderdale County is 
contained in the attached Historical Chart of In-Lieu of Tax Payments.
    In the last 3 years 2010-2012 the County has received 24.6 percent 
of the dollars authorized by the Agency. The literature states that 
Congress is authorized to appropriate money to make up the difference; 
obviously this has not happened in many years.
    The next two examples add to the question of equal tax dollars. One 
farm in the expansion area totals 3,135 acres. The farm is not 
greenbelt assisted. The taxes received on this one plot are $41,960 or 
$13.38 per acre, if it were in the greenbelt the taxes would be in the 
$21,000 range or $6.69 per acre and $20,973 in tax revenue. Under the 
U.S. Wildlife Agencies past 4 years payment average of $3.18 per acre 
the revenue would be $9,969 or a $11,031 deficit. A second example of a 
168 acre farm with woodlands averages $1,053 in tax compared to 
approximately $534 using Wildlife Agency's $3.18 per acre 4 year 
average for a loss of tax income of $519.
    County tax records indicate that county greenbelt tax income 
dollars covering farmland to swamps is $1,128,760 dollars. There are 
196,761 acres in the greenbelt tax relief program, this equates to 
$5.74 cents per acre for greenbelt properties. If the expansion were to 
happen immediately on just 35,781 acres of county greenbelt land we 
would lose in the range of $205,383 dollars in tax revenue. If U.S. 
Wildlife continues the last 4 year average payment their payment would 
total $113,783 for a loss of $91,600 per year. Please understand the 
$3.18 is still only 25 percent of the authorized amount. The financial 
department of Wildlife Services has indicated that this year's revenue 
will be downsized.
    The basic point after these examples is that in Lauderdale County 
the U.S. Wildlife Agency is not able to live up to their advertised 
statement that the Refuge Revenue Sharing Act allows them to offset the 
tax losses or even exceed that which would have been collected from 
taxes if in private ownership.
    U.S. Wildlife felt that tourist dollars according to the Southwick 
Studies would make up the difference between the lost tax dollars and 
the tax revenues. They reported there were 78,500 visitors to the 
Chickasaw Refuge or 215 visits per day. My belief is that at least 75 
percent of the visits were locals or farmers going through the Refuge. 
Our county is rural and without attractions, yes we have day trippers 
and day hunters from close proximities, but they leave home without 
spending dollars.
    In conclusion In Lieu Of tax payments are very important to our 
counties local budgets. The overwhelming future problem however; is the 
loss of local farm and timber revenues to our economies.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Schuh. We're now recessed. 
We'll return immediately after votes. Thank you.
    [Recess.]
    Dr. Fleming. The Committee comes back into order. At this 
point, we will begin Member questioning of the witnesses to 
allow all members to participate and to ensure we can hear from 
all witnesses today, members are limited to 5 minutes for their 
questions. However, if members have additional questions, we 
can certainly have another round of questioning or two. I now 
yield myself 5 minutes for questions.
    Mr. Ashe, what is the preliminary cost to acquire the 
120,000 or so acres in some of the most fertile cropland in the 
United States?
    Mr. Ashe. Well, Mr. Chairman, as I said in my testimony, 
when we enter something like this, we expect to acquire land 
over a period of decades. And so with the existing refuges that 
we have, these refuges were established back in the 1950s. And 
so we have established those refuges over a 60-year period of 
time, which is normal. But if we acquired 120,000 acres today 
at today's land cost of approximately $2,500 an acre, it's not 
too difficult to do the math. That's about $300 million.
    Dr. Fleming. OK. And where would that funding come from?
    Mr. Ashe. With the refuges that we have down there now, the 
funding would come from our traditional sources of funding, 
mainly from the Migratory Bird Conservation Fund, which is duck 
stamp money, so money that hunters provide to provide waterfowl 
breeding, migrating, and wintering habitat. It would come from 
the Land and Water Conservation Fund which comes from offshore 
oil and gas revenues, not from taxpayers, or it would come from 
the North American Wetlands Conservation Act, which is a mix of 
appropriated funding and excised tax and import duty funding.
    Dr. Fleming. And certainly the appropriated funds would 
come from taxpayers, so what percentage of that would be 
appropriated funds?
    Mr. Ashe. I can't answer that question directly. We can 
give you a historic figure for how we have acquired lands 
within these three refuges. I can provide that for the record.
    Dr. Fleming. OK. Yes, if you could get back to us, I'd like 
to see that. Of the 120,000 acres, how many would be acquired 
through the fee title?
    Mr. Ashe. Our plan presently is to acquire all those lands 
in fee title. With the existing refuges down there, we do not 
acquire lands using easement, but we would acquire land with 
easement if the landowner had an interest in easement and if 
that would fit the conservation purpose. But our plan at this 
point as proposed is to use fee title acquisition as we do with 
our existing refuges there.
    Dr. Fleming. So how does that differ from the central 
Florida. We discussed that a year or 2 ago. I mean, your plan 
you say is fee title, but you say that you also leave the 
option open for easements. So how does that differ from the 
approach in, say, central Florida?
    Mr. Ashe. The Everglades Headwaters Refuge in Florida is 
designed specifically for a fee title to have a traditional fee 
title refuge of about 50,000 acres and then to have easements 
in a larger area surrounding that fee title refuge where we're 
working with ranchers to put easements on ranches within that 
larger conservation design. And so in that case, as you know, 
we're working directly with Bud Adams and his family, a five-
generation rancher, who wants to keep his land in a working 
status, and that works for wildlife, too.
    So that's a case where we've sat down with the private 
landowners, which I think is our practice and our experience, 
and we're working out a design that works in that context. Here 
in Tennessee, we've worked traditionally with fee title 
acquisition and have, I think, a good history and tradition of 
working with the State of Tennessee and the local landowners 
using fee title acquisition. So that's the approach that we're 
designing here. It's not to say we couldn't use a different 
approach, but that's the approach we're using.
    Dr. Fleming. But it just seems to me to be far more 
practical to use the easement approach. It's much less 
expensive. It allows the landowners to continue to utilize 
their land. It prevents them from developing the land such that 
waterfowl and others no longer have access to the benefit, and 
with this maintenance backlog that we have, the pressure is 
obviously on us to appropriate more money to cover that, 
whereas with the easement, of course, the farmer is going to 
continue to maintain his or her own land.
    So it really seems to me that that's a much better way to 
go, a much more efficient way, a much more flexible way, and I 
would certainly urge you to emphasize that piece of this. With 
that, I'd be happy to yield to the Ranking Member for 
questions.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Mr. Ashe, this proposed expansion of the area where you can 
acquire easements or land from willing sellers is authorized by 
the National Wildlife Refuge Improvement Act of 1997. I 
understand and I believe that act was passed by a House and a 
Senate controlled by one party, the Republican Party at that 
time. You were with the service--I believe you were with the 
service at that time. Do you recall the number of votes, when 
it was passed?
    Mr. Ashe. The vote in the House was 419 to 1. I don't 
recall the vote in the Senate, but it was a similarly 
overwhelming vote.
    Mr. Sablan. So it must be a good policy, it's very rare 
that Congress passes that. So in your opinion, why did Congress 
ask the service to plan and direct the continued growth of the 
refuge system? Why does it need to grow?
    Mr. Ashe. The needs of wildlife change and can sometimes 
change rapidly depending upon the environmental conditions that 
they face, depending upon our human use of the land for our 
purposes, and so I believe that Congress, beginning with 
President Teddy Roosevelt, every President, Republican and 
Democrat, have used this authority wisely, and we've grown the 
National Wildlife Refuge system, and I believe that's one of 
the reasons why we have a vibrant, diverse, and healthy 
wildlife population.
    And it's because, as my colleague Steve Patrick said, we 
have a rich tradition of working with our State counterparts, 
and if you look at the map of this proposed expansion, it 
includes existing refuges and existing State lands, and so we 
have the opportunity to begin to connect these lands, improve 
our cooperation and joint management of these lands so that 
we'll have abundant wildlife populations in the future.
    Mr. Sablan. All right. Thank you.
    Mr. Patrick, in your testimony you mentioned increased 
urbanization is likely in Tipton, Lauderdale, and Dyer 
Counties, and that this would lead to loss of wildlife habitat 
and agricultural lands. Does this mean this now is the best 
time to start conserving existing wildlife habitat, and will 
you please tell us why?
    Mr. Patrick. Now is the critical time to take this action. 
As urbanization continues to expand, one of the things that we 
see is the price of undeveloped lands increases significantly. 
So the cost of preserving critical habitats will go up 
significantly as urbanization continues.
    Mr. Sablan. Thank you. I had conversations with almost all 
of you I think earlier. And I've got my own issues here, but 
I'm happy to see that Ms. Kelley is talking to Mr. Ashe, 
because I think it's the first time they've met. But let me go 
back to you, Mr. Ashe. In Ms. Kelley's testimony, she stated 
that she thinks the service is going to harass landowners if 
the refuge acquisition boundary is expanded. Are there working 
farms within the current acquisition boundary for the refuge, 
and have there been any efforts to force landowners who are not 
willing sellers?
    Mr. Ashe. There are working lands within the current refuge 
boundary, we have not in any way attempted to force out any 
landowners. As I said during my testimony, we work in the 
context of willing sellers, and we manage 150 million acres 
nationwide, and I can think of many landowners that we are 
working cooperatively with and believe the Fish and Wildlife 
Service is a great partner, which is not to say that we don't 
have disagreements from----
    Mr. Sablan. Yes, and Ms. Kelley, she farms cotton, Ms. 
Kelley. And it wouldn't hurt to hear Ms. Kelley out, and Mr. 
Ashe, I'd appreciate it if you'd do that.
    And I'm out of time, Mr. Chairman, so I yield back.
    Dr. Fleming. The gentleman's time has expired. Mr. Duncan 
is recognized for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    I'll use my time mainly to lay out some facts before I ask 
a question. I'm concerned about the amount of property that the 
Federal Government owns as a whole. And when we look at a 
western map and look at the Western States, it's concerning to 
the folks within Congress that represent those States at the 
amount of property that is not available for residential 
commercial development, energy utilization, and other things.
    I think about my home State and the amount of property the 
Federal Government owns in a county like McCormick, South 
Carolina, and that property is not available for industrial 
development and for other things. And their tax base is very, 
very low. And they struggle because the Federal Government owns 
such a huge portion of that very rural county.
    So those are the number one concerns, and then we see that 
we're wanting to buy 120,000 more acres in Tennessee, and it 
just seems to be concerning when I look at the fact--and this 
is--well, let me back up and talk about deferred maintenance 
for just a second, because I think my friend from Tennessee is 
going to expound on this, but I look in South Carolina. There's 
275 projects in our State around a total cost or a deferred 
maintenance cost of $85 million. If you go to Tennessee, 357 
projects, almost $100 million, we can't pay for what we've got 
now. So we're going to spend tax dollars to purchase more that 
we can't maintain, and this just seems to exacerbate the 
problem.
    Now the Federal Government ought to be selling properties 
that we currently own that are sitting vacant in this city that 
we're having to maintain, and those need to be sold and that 
money needs to go down to pay down the public debt. We're $17 
trillion in debt in this Nation. Let me repeat that number: $17 
trillion. We're borrowing money from China just to meet our 
normal operating expenses out of the Nation, and we're going to 
borrow more money from China to buy more property in Tennessee. 
That baffles my constituents.
    And so when I look at the current refuge boundaries of 
Chickasaw and Lower Hatchie, it's about 83,500 acres. And when 
I look at the number of acres within that existing boundary 
that are not owned by the Fish and Wildlife Service, there's 
about 45,156 acres within that Chickasaw and Lower Hatchie 
boundary there that we don't own yet. So instead of trying to 
take taxpayer dollars and maybe shore up our boundaries and buy 
all the contiguous property within those boundaries, we're 
going to go out here and buy another 120,000 acres to extend to 
another refuge.
    That doesn't make sense to me when we're taking property 
out of grow crop by doing that. We're taking the property out 
of production agriculture altogether. We're taking the timber--
the bottomland timber at a time that we hopefully are going to 
see a rebound in construction and need to harvest that hardwood 
timber for that.
    And so the question I have for you for the Fish and 
Wildlife Service is: Why we're not targeting that 45,000 acres? 
Is it not available? Is there not a way we can make it 
available? And shouldn't we identify those landowners and try 
to own that in a fee simple title before we go to buy 120,000 
acres? Could you answer that question?
    Mr. Ashe. Thank you. What we're trying to do is--our job is 
to ensure that in the United States of America that in the 
future we continue to have abundant populations of fish and 
wildlife. And in order to do that we have to be able to think 
50 to 100 years into the future.
    So what we're doing is we're trying to lay out a vision for 
the future that we believe in concert with our partners in the 
State of Tennessee and our partners nationwide, organizations 
like Ducks Unlimited and others that we are trying to identify 
a landscape that will continue to provide these abundant and 
healthy wildlife resources that we believe that we need and 
need to enjoy in the future. And so what we're doing is we're 
outlining a vision for the future.
    And so what we see here is we propose an expansion is what 
we believe is responsible and will contribute to vibrant 
wildlife populations nationwide. And that's our responsibility. 
And Congress has asked us to consider and to grow the National 
Wildlife Refuge System strategically in order to provide those 
benefits, and this is one of those areas where we believe we 
can do that working with local communities. And so that's why 
we're doing it is because it's our responsibility to think 50 
and 100 years into the future.
    Mr. Duncan. Let me be clear. No one appreciates the job 
that you've done and continue to do more than I do. I'm an avid 
outdoorsman. I've taken the opportunity to experience 
tremendous hunts and fishing experiences western and eastern, 
Mississippi Basin and other places on Federal land. So I 
understand that, and I appreciate that. But we're in days of 
austerity. We're in days of austerity, and I would be more apt 
to support an option on purchase of that going forward, when 
times get not as lean as we are now. And if that option expired 
because we didn't have the money as a nation to purchase that, 
so be it. That's what private business does. But a fee simple 
purchase like this of 120,000 acres concerns me in these times.
    And we'll need to be clear. As Americans we need to 
understand the amount of debt and the fact that we're running 
deficits every year. We can't pay our bills without borrowing 
money to do so. And so when private individuals and small 
businesses can't pay their bills, they don't go out and 
mortgage the future just to acquire more stuff. We just don't 
do that. And the Government shouldn't operate that way either. 
And that's philosophical, but it's common sense.
    And so I appreciate that, but I will go back to commending 
you for the job you do leveraging those dollars that Ducks 
Unlimited and other conservation groups put together. I've seen 
the benefit of that, but I just think we need to proceed 
cautiously on things like this going forward. And with that 
I'll yield, because I know the gentleman from Tennessee has a 
vested interest in this issue.
    So Mr. Chairman, thanks for letting me go over, and I yield 
back.
    Dr. Fleming. The gentleman yields back, and the gentleman 
from Tennessee is recognized for 5 minutes.
    Mr. Fincher. Thank you, Mr. Chairman. I appreciate the 
opportunity to have this hearing today, and I appreciate you 
allowing me to be part of the Committee and your Committee 
staff for helping.
    I appreciate the witnesses taking time out of their busy 
schedules to be with us today and my colleague from South 
Carolina, Mr. Duncan, he and I talk a lot about hunting and 
fishing and the outdoors and how important it is to us, our 
families. But I only have 5 minutes; I've got to be brief.
    Many, many things that have been said today are troubling. 
The 500,000 visitors per year--I'm a seventh generation west 
Tennessean. I've been all over these refuges, I've hunted, I've 
fished. I appreciate the outdoors. I appreciate what Fish and 
Wildlife is doing, what you're trying to do. But I also have an 
obligation now that I'm a representative to represent the 
constituents of my district. And this is troublesome, very, 
very troublesome, they are very skeptical of what is happening.
    So I want to start with Mr. Ashe just a couple of questions 
with you, and then Mayor Schuh, and I'll try to get to Ms. 
Kelley, too. There was a press statement that was given. Tom 
MacKenzie, a spokesman for the Fish and Wildlife Service said, 
``The expansion will help protect a unique habitat. It's a cool 
part of the country. Anytime you get rivers and hard bottomland 
hardwoods, it's a good place to grow critters and offers 
excellent hunting opportunities.'' Now I mean there's more to 
it than that. Correct, Mr. Ashe?
    Mr. Ashe. I think Tom was speaking from the heart. Of 
course there's more than that, and I think that as Steve 
Patrick identified in his remarks, this is an effort that we 
began with the Tennessee Wildlife Resources Agency a decade ago 
looking at this, and these areas are critical for waterfowl, 
for migrating songbirds and shorebirds, for threatened and 
endangered species, and so we don't establish a unit of the 
National Wildlife System lightly, and we don't propose an 
expansion lightly.
    As I said, this is a piece of a vision for the future in 
the United States of America, and the National Wildlife Refuge 
System, especially in concert with lands and assets that the 
State of Tennessee has invested in an area like this make it a 
strategic investment, and that's why we're doing it.
    Mr. Fincher. Let me ask this: Are you aware that citizens 
that are impacted by this proposal were only given 7 days 
notice? And if you're aware, why such a short amount of time? 
Is that consistent with current policy? Are you aware of that?
    Mr. Ashe. I'm aware that we wrote letters to over 1,000 
landowners who are within the proposed acquisition boundary. So 
we communicated with those people directly. We did provide 
public notice of the hearings. We had what I believe is ample 
opportunity----
    Mr. Fincher. Seven days? Is that ample time? Is that 
consistent?
    Mr. Ashe. I think that--in terms of notice for a public 
hearing--when we notice a public hearing, you like it to be 
contemporary with the hearing--because I know if I see 
something and it's 4 weeks out, I'll tend to forget about it.
    Mr. Fincher. Right.
    Mr. Ashe. And so usually when we do formal public notice, 
we usually do that a week ahead so that it's contemporary with 
the public----
    Mr. Fincher. It just seems like a short amount of time. The 
next question: Were you aware that the proposed expansion plan 
published--and I have the book that Randy Cook gave me at 
home--published the names of the owners of the parcels, 
including the county they live in and the acreage they own? And 
is that consistent with other environmental assessments your 
agency has done in the past printing all of that information?
    Mr. Ashe. It is consistent that we publish--that's publicly 
available information. Though you or I could go online, we 
could get the same information. And the reason we do that is 
for the landowner's benefit. When a landowner looks at a map of 
a proposed refuge expansion, we want it to be clear that their 
land is in or out.
    A lot of times we get comments from people that say they 
can't really understand the map. The map is not fine-grained 
enough. So what we like to do is identify for the landowners 
that their property is within or outside of a proposed refuge 
expansion, but it is all publicly available information. We do 
not include any information that is----
    Mr. Fincher. When is the last time you've been down to 
Chickasaw or Hatchie?
    Mr. Ashe. I've been in that area at least on three separate 
occasions. The last time I believe was in 2009.
    Mr. Fincher. OK.
    Mr. Chairman, my time has expired. I yield back.
    Dr. Fleming. The gentleman yields back. If the panel would 
like, we could have another round. I therefore yield myself 5 
minutes.
    Let's talk about the idea of willing sellers, Mr. Ashe. Of 
course there's willing sellers and then there's willing 
sellers. And by that I mean, for instance, if you for whatever 
reason buy up all the land around somebody, they can become a 
willing seller when they're not very willing to be a seller. So 
we have to think about that. But let's focus on maybe some of 
the power that your service holds in this. Has the service ever 
used condemnation authority for this purpose?
    Mr. Ashe. Ever? Yes, we have.
    Dr. Fleming. OK. When was the last time that was done?
    Mr. Ashe. I've been an employee of the U.S. Fish and 
Wildlife Service since 1995, and I'm not aware that we have 
used adverse condemnation at any point during that period of 
time.
    Dr. Fleming. Do you contemplate that if for some reason 
you're not getting the sort of success you expect from willing 
buyers that you would use it in this case?
    Mr. Ashe. I do not.
    Dr. Fleming. For Mr. Aiken, Ms. Kelley, and Mayor Schuh, do 
you believe--apparently this land has been evaluated at a price 
of 2,500 an acre. Do you agree that this is the proper value 
for the land?
    Ms. Kelley, I see you responding there. Let me have your 
feedback on that.
    Ms. Kelley. I'm pretty much in tune with what property 
sells for in our county, and I can cite one parcel that was 
sold just last year which is right within the boundaries of 
this plan, and it was open ground, good farming ground, and it 
sold for over $4,000 an acre. And I wouldn't sell mine today 
probably, my good open farm--good ground for $4,000 an acre.
    Dr. Fleming. Mr. Aiken? Mayor Schuh?
    Mr. Aiken. I actually am from the east Tennessee area, so 
I'm not totally familiar with prices in that area of the State. 
But from discussions with other farmers, my understanding is 
that price would not be totally in line with the true market 
value today.
    Mr. Schuh. My farmer friends tell me that land is going 
between $3,000 and $3,500 currently in our area.
    Dr. Fleming. OK. If land is sold to the service fee simple 
considering the fact that could have an impact on the future 
value of land that's not yet sold, what's your perception of 
that? Do you think that helps, hurts? I think we heard 
testimony that somehow that enhances the value of land, do you 
agree with that?
    Ms. Kelley? Sure.
    Ms. Kelley. I'll be glad to answer that question. There 
seems to be some discussion about willing sellers. It just 
depends on where the property is. If you're, for instance, 
between two parcels that belong to Fish and Wildlife, you can 
have many, many problems from what they call runoff of 
pesticides or they can conduct business on the land where the 
land becomes wetlands in their area. And then it bleeds over 
into our property and can become wetlands. So you become a 
willing seller when things like that happen to you. As far as 
them being around us, it just poses a lot of problems.
    Dr. Fleming. Does it create access problems?
    Ms. Kelley. It does. It does.
    Dr. Fleming. Do you see that potential?
    Ms. Kelley. The court case I cited earlier--these gentlemen 
are having a terrible problem at the present--actually what 
happened in the court case was they had dug a well on their 
property and spent over $20,000 for the well. And then after it 
was dug, U.S. Fish and Wildlife decided that it was really on 
their property. So they moved the boundary line over, and they 
possess the well.
    Well, they had to go through several different court cases 
litigating this to secure that property back to the original 
boundaries. They were successful in Cincinnati at the Court of 
Appeals doing that. But now the problem is U.S. Fish and 
Wildlife surround them. They have to have egress and ingress to 
the property.
    These individuals only use that property for duck hunting 
purposes and recreation, and now they can't get in and out to 
their property because Fish and Wildlife says if they damage 
the road in any way, they have the right to revoke it. And they 
can't gravel the roads, so in the wintertime in Tennessee, it's 
very hard to travel on a road as rainy as it is without 
damaging the roads. So that's just one case that I know of.
    Dr. Fleming. Well, then I'll say as I yield that it seems 
to me that there is a coercion factor here. Obviously as more 
land is scooped up, there's more regulations that are subjected 
to the existing landowners. If landowners become forced into 
willing sellers, to me that's not being a willing seller. And 
really, that expands to a much larger question that we are 
examining today: the coercive effect of the Internal Revenue 
Service on its citizens; the coercive effect of the EPA, what 
it can do to citizens.
    And so I really think as we think through and work through 
this, we really have to reconsider as an ever expanding 
government that begins to work in its own interests rather than 
the interests of its citizens and to be accountable to those 
citizens. With that, I'll be happy to yield to the Ranking 
Member. Yes, yielding to the Ranking Member for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman. During the 
break when I had a conversation with Ms. Kelley--this is one 
thing that I'm so proud of with Congress is that constituents 
would bring their grievances with their government like we have 
here with Mr. Fincher and that's our job. That's what we do 
here, and some of us just love doing it. But whether we agree 
or not, back from where I come from it's great that Fish and 
Wildlife can actually buy the property, because back from where 
I come from, Fish and Wildlife can't buy the property because 
they have these laws and these rules. Private owners can't do 
anything with a piece of property that they have. So you have 
an advantage here that we don't.
    But let me go back to Mr. Ashe, because Mr. Duncan 
mentioned earlier that he would support the service having an 
option to purchase land. But having that option, isn't that 
exactly what increasing the refuge acquisition boundary does 
also? Mr. Ashe, can you answer that?
    Mr. Ashe. Thank you, because, Mr. Duncan, when you were 
saying that, I think that's exactly what this proposed refuge 
acquisition boundary is. It's an option. And it's an option on 
the future. And so as we move forward and as landowners 
willingly decide that they would like to sell their property, 
it provides them with more options.
    Mr. Duncan. Will the gentleman yield?
    Mr. Sablan. I'll yield a minute for Mr. Duncan.
    Mr. Ashe. It is precisely an----
    Mr. Sablan. Yes. I'll yield a minute to the gentleman.
    Mr. Duncan. Let me just clarify that my comments about 
having an option were an option not when the seller was willing 
to sell that we would be a ready, willing, and able buyer that 
would exercise that option to purchase that. The option should 
be from the Federal Government, as I was saying in my comments, 
when we've got the money.
    Mr. Ashe. And it is both because we have to obviously have 
the money before we can exercise that option. And so Congress 
provides us with money or we have money that duck hunters 
provide us to provide migratory habitat, which is what this 
would provide. And so when we have the resources and when we 
can match that with a willing seller, then we both have an 
option.
    Mr. Duncan. But is that not always the case in that a 
willing seller that owns a piece of property in fee simple 
private ownership could exercise their right to sell that 
property to anyone to offer that to the Federal Government?
    Mr. Sablan. I'm going to reclaim my time here, because I'm 
going to----
    Mr. Duncan. And I yield, but----
    Mr. Ashe. Not unless we have a----
    Mr. Sablan. Something happened to the time. Yes, give it 
back to me, thank you. So while we're discussing this option, 
let me ask: So Mr. Ashe, you're also telling me that say--
because Ms. Kelley said she won't sell her property for $2,500. 
For example, so if someone thinks that $2,500 per acre is too 
low, so you're saying that they can keep their land?
    Mr. Ashe. They can keep their land. And we pay fair market 
value. So just like any transaction, we do an appraisal and we 
would make an offer at fair market value.
    Mr. Sablan. I'm going to try and find a way for you to buy 
land in the Marianas that we can't use because your rule says 
we can't do anything with it. So I'm going to try seriously, so 
now, Mr. Patrick, how does the option to sell land to the 
refuge increase economic opportunity in the counties around the 
proposed refuge?
    Mr. Patrick. A refuge system operates very similar to the 
way we operate our wildlife management areas. And as part of 
the way we manage wildlife habitat is we use local farmers to 
help with our agricultural operations. We sell timber to local 
loggers and sawmills. And so rather than an entire loss of 
agricultural acres or an entire loss of forestland, there will 
be some changes I would imagine, but that total acreage being 
totally removed from producing either an agricultural crop or 
lumber will continue.
    Mr. Sablan. Thank you, Mr. Chairman. I yield back.
    Dr. Fleming. The gentleman yields back. I believe we're 
back to Mr. Duncan.
    Mr. Duncan. I want to thank the gentleman for yielding some 
time to me on that issue to clarify my point. About 5 years ago 
my wife and I had an opportunity to purchase about 250 acres 
adjoining our property, a good stand of saw timber pine, but we 
didn't have the money. We couldn't afford it. I was a small 
business owner, didn't want to go into debt, didn't want to go 
into a tremendous amount of debt, would have had to borrow some 
money, discussed it with the bank and just decided that it was 
not what I wanted to do and obligate my children possibly of 
having to pay for this. And so we missed that opportunity.
    Was I concerned about what would happen to that property? 
Sure. Was I concerned it was going to be clear cut and never 
replanted? Absolutely. Was I concerned it was going to be 
developed into something that I didn't want, that was 
undesirable beside my property? Absolutely. But you know what? 
I didn't have the money. And I'm concerned about what seems to 
be an insatiable desire of the Federal Government, not 
necessarily just the Fish and Wildlife Service, but our 
Government as a whole to own more and more at a time when we 
just can't afford it.
    And we've got to come to the realization as Americans that, 
you know what, we may have to pass on some things because we 
can't afford it. And until we expand the tax base and put more 
Americans back to work and improve the economy and allow 
Americans to thrive and have more money in their pocket and all 
the things that good government should do, then we can make 
these decisions about whether to expand our resources, whether 
it's in the ACE Basin in South Carolina or whether it's the 
Hatchie and the Mississippi Delta areas. So I don't have any 
further questions for you.
    I'm a conservationist. I enjoy the outdoors. I have enjoyed 
some of this area probably on the Arkansas side and not 
necessarily the Tennessee side of the Mississippi Flyway 
because I'm a duck hunter. But I drive through this and through 
the gentleman from Tennessee's area looking longingly at that 
hardwood bottom that's flooded in January--early January 
wondering: I wish I could get out there and wade and watch the 
wildlife and maybe shoot some ducks.
    But as a conservationist it's a struggle. But as a father 
of three sons who are going to eventually work and have to 
start paying taxes to pay back this debt and hopefully have a 
family of their own and children of their own that are going to 
still be paying taxes on this debt that we're creating today, 
and as a representative and a Member of Congress representing 
this Nation, not just the third district of South Carolina, 
we've got to make decisions based on what's the right thing for 
our future generations. And I agree with you that trying to be 
frugal and setting aside property for future generations as you 
mentioned, I don't disagree with you on that because I'm the 
benefit of leaders before me that have had that vision. But 
I'll tell you, they weren't $17 trillion in debt either.
    We've inoculated Americans on what a trillion dollars 
really is. But I'm saying $17 trillion, America. That's a lot 
of money. And I just can't in good conscience, Mr. Chairman, 
support something that will allow the Government to continue to 
feed this beast and ``indebt'' future generations.
    So I just want to be clear that if we were going to get 
serious about paying back our debt as a nation and we did it at 
the rate of $20 million a day, and we paid our creditors $20 
million a day every day, if we started today, which is 
Thursday, we gave them $20 million, put this on the principal, 
and we came back tomorrow and said put $20 million on the 
principal, Saturday, Sunday, Monday, Tuesday, Wednesday, 
Thursday, Friday of next week, did that 365 days a year, 7 days 
a week, $20 million a day and we got in the handy dandy time 
machine and we traveled back to the time that my savior Jesus 
Christ was born and we paid our creditors back $20 million a 
day every stinking day from that day 'til now, we have not paid 
$16 trillion in debt.
    And we've got $17 trillion in debt to address as a nation. 
That's the stark reality of where we are as a nation with 
continuing running deficits and spending money that we don't 
have. As much as I would like to say let's set that land aside, 
let's buy this land, let's create a duck habitat, let's create 
opportunities for me and my boys to hunt and fish and 
properties in the Lower Hatchie or the Chickasaw--as much as I 
want to say that, this overwhelming burden of our Nation's debt 
and our borrowing and the deficit spending and an unbalanced 
budget overwhelms my desire to do that. And so we need to keep 
that in the forefront of our minds and take that under 
consideration.
    And with that, Mr. Chairman, I apologize for the rant, but 
I do yield back.
    Dr. Fleming. The Gentleman yields back, and the Chairman 
now recognizes Mr. Fincher.
    Mr. Fincher. Thank you very much. My colleague gets very 
aggressive sometimes, I thought he was going to hit me there 
for a minute.
    Let's shift gears now to the revenue part of it, and in 
thinking about--look, as a farmer myself, again, my boys hunt 
and fish, I hunt and fish, but working together with Fish and 
Wildlife, we can take care of the land better than the 
Government and better than Fish and Wildlife. No offense. 
You've done a great job. But we're hands-on. We're there as 
farmers, as conservationists, equip program, filter strips on 
ditches, I mean, these things are all great. I mean, quail 
habitat, we do all of this. But there's a revenue problem.
    Look at the chart that we just put up about the refuge 
revenue sharing payments. Look at Dyer, Haywood, Lauderdale, 
Tipton, what they're authorized and what they're actually 
receiving. Now here's my problem, Mr. Ashe--and I don't think 
the President's budget for the last 3 years, any money has been 
allocated for--any more than what was previous--24 percent is 
all that's been paid out to these counties.
    Now again, you've been there in 2009 I think and there's 
not much there other than farmland. And there's not going to be 
much there other than farmland, and if the refuge takes all of 
this property, you've killed the tax base. When agriculture, 
when crops are produced, the dollar turns over and over and 
over in the local communities, and then on top of that, they're 
not getting compensated from the Government what they're told 
they were going to be compensated for.
    So Mayor Schuh has to go this his constituents of his 
county and explain why he doesn't have the money to do what 
they need to do. What is your answer to giving the counties the 
money they are supposed to be getting before we even talk about 
acquiring more land?
    And the second question is: Can you buy land now without 
drawing this boundary around all of this land? Can you go in 
now--this is before the boundaries--and just say I want to buy 
a certain tract without the boundaries being drawn? Can you go 
in next to the refuge in the old lines and say I want to buy a 
piece of property? And then if you--answer both questions if 
you don't mind.
    Mr. Ashe. I can only buy land that's within an approved 
refuge boundary.
    Mr. Fincher. OK. All right. Now the second part to the 
revenue part of paying the counties.
    Mr. Ashe. Refuge revenue sharing, so when we go in and 
propose a refuge or a refuge expansion, then communities can 
see the same information that you're presenting here. So the 
amount that is authorized under the law is like an 
authorization under any other law. Unless Congress appropriates 
that money, we can't realize that payment. But we're upfront 
with communities and with landowners, and we tell them what we 
would expect a revenue sharing payment to provide. We don't 
promise them a level of funding that is not based upon 
traditional----
    Mr. Fincher. In the President's budget, the last 3 years 
he's recommended zero dollars. Do you tell the landowners that 
and the county mayors that? Because I assume if you did, they 
wouldn't be for it.
    Mr. Ashe. What we tell communities is usually what the 
payments have been in the past. But we don't--that's the record 
that--you are exactly correct. In the last three budgets we 
have recommended no appropriations for refuge revenue sharing. 
But Congress has appropriated money for refuge revenue sharing. 
But what I talk to communities about is the benefit that comes 
from establishment of a refuge.
    And every economic study that has been done has 
demonstrated that establishing a refuge and operating a refuge 
within a community is a net economic benefit. We have never 
seen an economic study that does not demonstrate an economic 
benefit.
    Mr. Fincher. Being here for 3 years, we study a lot. I 
mean, there are a lot of things that we study, and you know the 
approval rating of Government and Congress right now is not a 
very high number either. The people that I've been in contact 
with are not for this. And trying to explain to them how 
turning this into a refuge is going to be more return, a better 
economic impact on the community than $150 bushel an acre corn 
or $50 bushel to the acre of soybeans, it's a struggle. I mean, 
it's a struggle.
    And so if we can't--and giving back my time--it's expired. 
But if we can't take care of what we have, if Fish and Wildlife 
can't take care of what they have--if they were taking care of 
what they had, it would be different. But if they can't, how in 
the world can we start to expand the boundaries and take more 
land? And my time has expired, so I yield back.
    Dr. Fleming. The gentleman yields back. I know Mr. Aiken 
has got to catch a flight. Do we have interest in more 
questions?
    Mr. Sablan. I think Ms. Kelley is going to try and see the 
vote on the farm bill, so I have no questions.
    Dr. Fleming. OK. So how about you, Mr. Fincher?
    OK. So we'll have another round or another opportunity for 
questions.
    And Mr. Aiken, if you need to go, certainly we understand, 
but otherwise we'll certainly move forward.
    I now yield myself time.
    Mayor Schuh, if farmland in Lauderdale County is generating 
$8.13 per acre in land taxes, why is the Fish and Wildlife 
Service only paying $3.18 per acre?
    Mr. Schuh. In my conversation with the financial department 
in Denver--I only know what I'm told--is that there's only so 
much money available, and as Fish and Wildlife continues to buy 
land, the piece of the pie gets smaller for everyone. Congress 
can put money back in, but they haven't--but they've failed to 
do it, and the conversation this past week was that Congress 
basically took out some money, and they expect my check to be 
lower next year--I mean, within the next month or 2. And he 
said, ``I have no idea,'' because he said the refuge money is 
not back in. We don't know the revenues of what the refuge 
money is. And that's what I was told. I don't understand 
everything completely.
    Dr. Fleming. Well, I know that my colleagues here from the 
West and States that have large portions of their States that 
are owned by the Federal Government, they struggle mightily 
when it comes to their tax base. That's land that is sort of 
taken off the table for revenue production for the local 
population, and yet it's used for the benefit of the Federal 
Government. So it does seem to be problematic to continue to 
take that land that has obvious revenue and to really take it 
off the shelf for the local community.
    Let's see. For the panel except for Mr. Ashe, because this 
I think doesn't really apply to Mr. Ashe, do you believe that 
in order to save this 70,000 acres of agricultural lands in 
Haywood, Lauderdale, and Tipton Counties Federal Government 
must own this land?
    Ms. Kelley. I believe in order to save the land, the 
Federal Government must not own this land. We as farmers do an 
absolutely fabulous job of adhering to natural resource 
conservation plans. We have a plan for each farm. We have to do 
minimum till. We have to do no till. We are heavily governed 
already by the U.S. Government through natural resources in 
being good stewards of the land.
    And I am a sixth generation person, just like Stephen is, 
and am of American Indian heritage. And I really don't want to 
see it go back to the way it was when the American Indians 
lived here, and that seems to be the goal. But we've done a 
fabulous job of co-inhabiting with wildlife. My husband and my 
family, my boys, my sons-in-law, they are avid hunters. We try 
to protect the land as much as we can.
    My main concern is not for unique habitats; it's for the 
unique habitat of the human species who live in this area, 
because we are going to suffer so greatly from the diminished 
economic values that our county will see. As far as the land, I 
think we do a fabulous job already.
    Dr. Fleming. What are your thoughts, Ms. Kelley, before I 
shift to the mayor for that same question, about the idea of 
easements as opposed to fee title?
    Ms. Kelley. I don't know. I have a distrust of the system 
because I guess as the country music song says, ``I've seen it 
in color.'' I've seen what really happens when you have to live 
next door to these people. We farmed a cotton farm in Haywood 
County, and it was acquired by the Tennessee Wildlife 
Foundation. The only thing was we owned 100 acres that was the 
boundary along the rivers--I think it's Big Muddy Creek or 
something like that.
    But anyway, they came in, they tore down all of the levees 
that we had up there. It was a wonderful producing-cotton piece 
of ground. They tore down the levees, they put a gate up, they 
planted trees on it, and no one is allowed to go in there 
except the director of the Tennessee Wildlife Foundation, and 
he hunts on it. So we have had to live next door to them, and 
we cohabitate with them, and my husband has bent over backwards 
to conform to the new regulations that we have to conform to. 
And it's been very difficult, and we have spent many, many 
thousands of dollars trying to conform to the regulations that 
they put on us.
    Dr. Fleming. Sure. I'm running out of time. Mayor, let me 
get your just yes or no, and also the gentleman from Tennessee.
    Mr. Schuh. My farmers are very conservative in my county. I 
realize that not every farmer is perfect; 5 percent as always 
in this population makes it hard on the other 95 percent. 
Another concern I have is riverboat barge traffic going up and 
down the river. If the Federal Government owns all the land--I 
collect $218,000 in taxes from river barge. In the future if 
they own all the land, who gets those taxes? Are those taxes 
going to go to the Federal Government? It's just a question. I 
have no idea. That was a concern. And I thought it was 
something to bring up.
    Dr. Fleming. OK. My time is up.
    Mr. Sablan, you still have no further questions? If not, 
I'll--if you do, I'll----
    Mr. Sablan. Well, actually, now that you started, Mr. 
Chairman, I will ask some questions. I'm only 45 minutes late 
for a meeting, but--Ms. Kelley and I had several conversations 
in the back. I think I like this lady. I don't agree with her, 
but I like her. And we talked a little bit also about the 
national debt, because Mr. Duncan brought it up. It's a big 
issue. It's something that we should really be all concerned 
about.
    But Ms. Kelley, you mentioned in your testimony you're 
concerned about the national debt just as we had in our private 
conversation during the break. I am as well. But in 2012, 
farmers in Tipton County received nearly $6 million in Federal 
farm subsidies, and I'm certain in the farm bill that's being 
debated and will be voted on and soon there will be other 
subsidies, but $6 million is far more than their farmland 
generates in tax revenue. So do you believe those farm 
subsidies are fiscally conservative and an appropriate use of 
taxpayers' dollars?
    Ms. Kelley. I have to clarify your question. You said that 
those farms' subsidies exceed our gross revenues that we put 
back into the economy?
    Mr. Sablan. No. The farmland generates in tax revenue, not 
in gross revenue, tax revenues.
    Ms. Kelley. In tax revenues----
    Mr. Sablan. Yes.
    Ms. Kelley [continuing]. For the county taxes?
    Mr. Sablan. For the farmland that receives the subsidy of 
$6 million, they get more in subsidy--those farmlands, than 
they do generate in tax revenues.
    Ms. Kelley. I'm not so sure that's correct. We probably 
have about $115 million, total gross receipts, somewhere around 
there. And in some years it's even more. It just depends on 
what the profit of the farmers was to be able to tax and what 
rate that you're at. So I think that's subjective.
    Mr. Sablan. Yes. But I'm talking about the subsidy and tax 
revenue. But so let me go to Director Ashe.
    Mr. Ashe, the House is going to pass a farm bill that 
includes $40 billion in commodity program alone. How does that 
compare to the total budget of Fish and Wildlife Service?
    Mr. Ashe. The total appropriated tax payer funded budget--
--
    Mr. Sablan. Yes.
    Mr. Ashe [continuing]. For the Fish and Wildlife Service is 
about $1.3 billion.
    Mr. Sablan. All right. So remaining with Mr. Ashe, let me 
ask you--I just want a yes and no answer to my questions, 
because you testified that the service acquires land only from 
willing sellers. And so I just want to be very clear for the 
record. So let me go over this again. Does the simple act of 
expanding the refuge acquisition boundary mean the service now 
controls even a single additional acre of land?
    Mr. Ashe. No.
    Mr. Sablan. Would this expansion result in even a single 
change to what private landowners can do with their land?
    Mr. Ashe. No.
    Mr. Sablan. Let me be very clear again. You're saying that 
there will be no new regulations or restrictions resulting from 
private land being included within a refuge acquisition 
boundary, correct?
    Mr. Ashe. None whatsoever.
    Mr. Sablan. OK. So does this expansion give the service the 
ability to do anything at all besides buy land or easements 
from people who want to sell them?
    Mr. Ashe. No, it does not.
    Mr. Sablan. And I keep going back to this wonderful lady 
that I hope she and I become friends, Ms. Kelley. Mr. Ashe, 
when you have the time, please listen to this lady, because she 
can convince you of a lot of things.
    But Ms. Kelley, let me go back. And of course we all work 
here as a group, so if I was a farmer in Tennessee--trust me, 
I'm not a farmer, but if I was a farmer and I want to sell my 
private property, why should that be anyone else's business but 
my own?
    Ms. Kelley. If you want to sell it?
    Mr. Sablan. Yes.
    Ms. Kelley. Well, if you sold it purely because you wanted 
to sell it, that is your business. If you have to sell your 
property because you're being surrounded by unfriendly owners 
whomever they might be, that might be a different subject. If 
for instance----
    Mr. Sablan. So if I sell my property because I don't like 
my next door neighbor, that should be your business?
    Ms. Kelley. That should be that person's right to do that 
if they don't like their neighbor.
    Mr. Sablan. That's exactly my question, so----
    Ms. Kelley. Right.
    Mr. Sablan. But why should it be anyone else's business for 
any reason why I would want to sell something that belongs to 
me?
    Ms. Kelley. You misunderstood me. If they damage your 
land--for instance----
    Mr. Sablan. Sue them.
    Ms. Kelley. Yes. Exactly. That's the point. That's what the 
Fish and Wildlife force these people to have to do. The 
ordinary person does not have enough money to fight a giant 
like Fish and Wildlife, and that's when those people turn 
around and sell their land because there's nothing else they 
can do. It's like let's cut and run and cut our losses. If we 
go to court we're going to spend thousands and, well, hundreds 
of thousands of dollars. And that's the problem.
    I think maybe Fish and Wildlife and Congress had a very 
noble cause when they started back in 1997 as you say. You and 
I had this discussion. The causes are noble. The problems are 
when an agency gets so large and it runs amok, the people over 
the agency don't even realize what's happening out there in the 
field. And that's the problem. And things can be done to us 
that you guys in Washington don't even know about. If you do, 
you're condoning it.
    Mr. Sablan. And I just want the record to reflect that Ms. 
Ashe didn't throw her water bottle at me; actually just dropped 
it. But--I mean, Ms. Kelley. I'm sorry.
    And Mr. Chairman, I yield back, and I thank you.
    Dr. Fleming. The gentleman yields his time back. Mr. 
Fincher is recognized for 5 minutes.
    Mr. Fincher. Thank you, Mr. Chairman. And wrapping up, I 
think we've got to go vote here in a minute. But my colleague 
alluded to the farm bill, and it's--I guess it's--we need to 
make sure that we clarify this point. For the first time in the 
history of the farm bill, the direct payments, the farm 
subsidies that we've all known to exist are going away. No more 
direct payments after today after this farm bill passes. So 
hopefully that's an issue that can be removed from the 
discussion.
    I think what we see--what I see as someone who goes home 
every weekend is Mr. Ashe and Mr. Patrick are here before us 
today. I trust both of them--I trust what you say is the truth. 
But to Ms. Kelley's argument, the Government is so big--IRS, 
the Justice Department with the AP and the Fox News story, the 
NSA, all of these programs, all of the things that are going 
on--the Government is so large that, Mr. Ashe and Mr. Patrick, 
you can't see after all of the Fish and Wildlife Agency.
    And what happens is you have sometimes within all sorts of 
areas of our life and business and government is bad actors 
sometimes do bad things and take it upon themselves to make 
judgment calls that may not be what the Fish and Wildlife 
Service intended any of the time. To Ms. Kelley's point, what 
she was talking about is let's say you have a piece of property 
that's $4,000 an acre prime cotton land, corn land in the 
Mississippi Bottom or the Hatchie Bottom. And let's say that on 
both sides of that land, Fish and Wildlife buys that property.
    Well, they want to return that property back to the State 
that they think is better for the environment. That's OK. Let's 
say the drainage ditches on that property get choked up with 
debris. Well, many times they don't want to go in and disturb 
those drainage ditches.
    So what happens is that $4,000 piece of property that Ms. 
Kelley owns when she puts it on the market to sell it and not 
to Fish and Wildlife, but to someone else, they come down and 
look at it, and they say, ``Well, Ms. Kelley, that property is 
not worth $4,000 an acre, because you see, on both sides of it, 
Fish and Wildlife own it, and they aren't going to let me clean 
that drainage ditch. And if they do let me clean it out, it's 
going to take an act of Congress to get to do it. So your 
property is worth $2,000 an acre.'' These are all valid 
concerns of my constituents, Mr. Ashe and Mr. Patrick.
    And I'm not saying we can't work this out. I am super glad 
to work with you and the farmers, the mayors to help keep and 
restore this country and our wildlife habitat back to whatever 
we think is responsible. But we need to do it in a way that has 
an open relationship. We need to do it in a way that Mr. Cook 
just doesn't show up in December with a map and say, ``Here's 
what we're going to do. I hope you're happy with it.''
    We need to do it in a way that everybody's upfront, 
everybody knows what's going on, and if the folks don't want 
it, then we don't need to do it. And so that's the 
responsibility I have, but I am not anti-Fish and Wildlife. I 
promise you. But I am pro-taking care of the country and my 
constituents. I've got a minute and fifty left. Mr. Ashe, do 
you want to respond? And then I'll let Ms. Kelley just for a 
minute.
    Mr. Ashe. I do. And I guess quickly I'll just say my 
parents live in Massachusetts. And last weekend I was on my way 
out west, and my mother said, ``How come you never come to 
Massachusetts?'' And I said, ``Well, because that's not where 
the problems are.'' I tend to go where the problems are. And I 
will be direct with you and say we own 150 million acres of 
land, and just like any--I have sometimes day-to-day problems 
with my neighbor. And so we do have from time to time, we have 
problems. But the idea that we are flooding adjacent 
landowners' land in order to drive the values down----
    Mr. Fincher. No. No. And I'm not saying intentionally--no, 
no. I'm not saying intentional.
    Mr. Ashe. Right. And so let me just say just for the record 
clearly, does not happen. We have an excellent record of 
working with private landowners. And where we do have issues 
with landowners, I hear from Members like yourself, and I think 
we have an excellent record of meeting with folks like 
yourself, with landowners and working those problems out, and 
I'm happy to do that. And I would say that what we have made is 
a proposal, Congressman, and I am committed to working with you 
and the communities on this proposal. And I think we can do 
that.
    Mr. Fincher. Well, and again, if this was all as good as it 
seems, then I think all of my farmers at home would not be up 
in arms against it. And so we've got some work to do.
    Ms. Kelley and Mr. Schuh just for a few minutes--a few 
seconds before we go. Thank you for coming, but any further 
comments?
    Ms. Kelley. I just want to say that Mr. Sablan's right. I 
really do like him.
    [Laughter.]
    Mr. Fincher. Mayor.
    Mr. Schuh. I like all the Committee members and thank you 
for giving us this opportunity.
    [laughter.]
    Mr. Fincher. Thank you, Mr. Chairman. I really appreciate 
this, and the Ranking Member.
    Dr. Fleming. Let the record reflect that everybody likes 
everybody today.
    [Laughter.]
    Dr. Fleming. Well, before closing, I would again like to 
compliment Congressman Fincher for bringing this issue to our 
attention and for superb leadership on behalf of his 
constituents in the 8th Congressional District of Tennessee. 
Based on this hearing and others during the past 30 months, my 
views on this issue have not changed, however. I believe the 
acquisition of privately held land by the Federal Government is 
a huge job killer. Upon fee title acquisition, all productive 
uses of these lands, including farming, grazing, and timber 
activities must cease to exist, and with their elimination, 
thousands of jobs are lost.
    In addition, the Federal Government loses revenue in terms 
of tax receipts, local communities lose their economic base, 
and the Federal Government must dedicate millions of dollars to 
maintain those formerly productive lands forever. It is a lose-
lose proposition.
    I want to thank Members and staff for their contributions 
to this hearing. There being no further business, without 
objection, the Subcommittee stands adjourned.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]

            [Additional Materials Submitted for the Record]

   Questions Submitted for the Record to the U.S. Fish and Wildlife 
                  Service, Department of the Interior
   Questions Submitted for the Record by The Honorable John Fleming, 
   Chairman, Subcommittee on Fisheries, Wildlife, Oceans and Insular 
                                Affairs
    Question. When do you anticipate that a final boundary expansion 
plan for these two refuges will be submitted to the Director of the 
U.S. Fish and Wildlife Service for his approval?
    Answer. In early 2014, the U.S. Fish and Wildlife Service 
(Service), in coordination with Representative Fincher, plans to hold 
additional public meetings and re-open the comment period in an effort 
to give the local community an additional opportunity to provide input 
on the proposed boundary expansion at the Chickasaw and Lower Hatchie 
National Wildlife Refuges (Refuges). Should it go forward, we expect to 
submit the final boundary expansion plan to the Director in the second 
half of fiscal year 2014.
    Question. How many private landowners have approached Fish and 
Wildlife Service representatives in the Southeast Region indicating a 
desire to sell their property to the Federal Government but have been 
told that negotiations are not possible because their land is not 
within current refuge boundaries?
    Answer. Refuge managers are routinely approached by landowners 
offering to sell property to the Service. If the property is located 
outside an approved acquisition the Service is unable to acquire the 
land, and no further discussions occur. We do not track the number of 
landowners that approach the Service with an interest in or an offer to 
willingly sell property outside an approved acquisition boundary. 
However, the Service does track the number of willing sellers within 
the proposed boundary expansion as part of the planning process. In 
response to information presented at the scoping and public meetings 
for the proposed acquisition boundary expansion at Chickasaw and Lower 
Hatchie National Wildlife Refuges, 34 landowners have contacted Service 
staff indicating a desire to sell their property to the Service. Five 
individuals have expressed a desire not to sell.
    Question. How many acres a year is the Service currently purchasing 
and adding to the inventory of the Chickasaw and Lower Hatchie National 
Wildlife Refuges?
    Answer. Refer to the table below.

------------------------------------------------------------------------
                                                             Total Acres
           Fiscal Year              Chickasaw      Lower      Purchased
                                       NWR      Hatchie NWR     by FWS
------------------------------------------------------------------------
1980.............................            -          393          393
1981.............................            -          705          705
1982.............................            -          884          884
1983.............................            -            -            -
1984.............................            -            -            -
1985.............................        5,798        2,071        7,574
1986.............................            -           80           80
1987.............................        4,144            -        4,144
1988.............................        5,528            -        5,528
1989.............................            -            -            -
1990.............................        1,081            -        1,081
1991.............................            -          168          168
1992.............................            -           34           34
1993.............................            -        3,054        3,054
1994.............................            -            -            -
1995.............................            -            -            -
1996.............................            -            -            -
1997.............................           37            -          437
1998.............................            -            -            -
1999.............................            -          318          318
2000.............................            -            -            -
2001.............................          690           25          715
2002.............................          646        1,224        1,870
2003.............................          813           64          877
2004.............................          364          294          657
2005.............................          163          634          797
2006.............................          419            -          419
2007.............................          160          398          558
2008.............................            -           42           42
2009.............................          131            -          131
2010.............................            -            -            -
2011.............................          182          838        1,020
2012.............................          357          657        1,014
                                  --------------------------------------
    Total (acres)................       20,914       11,883       32,797
------------------------------------------------------------------------
Table 1: FWS Purchases (fee title only) for Chickasaw and Lower Hatchie
  NWRs.

    Question. During the past 10 years, how many acres have been 
donated by private landowners to either the Chickasaw or Lower Hatchie 
National Wildlife Refuges?
    Answer. Refer to the table below.

------------------------------------------------------------------------
                                                 Chickasaw      Lower
                  Fiscal Year                       NWR      Hatchie NWR
------------------------------------------------------------------------
2006..........................................          196            0
2012..........................................           18            0
                                               -------------------------
    TOTAL (acres).............................          214            0
------------------------------------------------------------------------
Table 2: Donations (fee title) from private landowners at Chickasaw and
  Lower Hatchie NWRs.

    Question. It is my understanding that the current refuge boundaries 
for Chickasaw and Lower Hatchie Refuges is 83,500 acres. How many acres 
within the existing boundary are not owned by the Fish and Wildlife 
Service?
    Answer. Fee title ownership by the Service, State owned lands 
within the current acquisition boundary, and State lands under lease by 
the Service account for 45,310 acres. This leaves 38,190 acres within 
the approved acquisition boundary that are not within the Federal 
conservation estate for both refuges.
    Question. Why not purchase this land first before targeting an 
additional 120,000 acres of private property in these four counties?
    Answer. The Service's inability to acquire lands within the current 
acquisition boundary due to funding limitations or unwilling sellers 
does not eliminate the biological need to conserve, restore, and 
enhance those habitats within the 5-year floodplains of the Mississippi 
and Hatchie Rivers. The habitats within the proposed expansion area 
have been identified as important for fish and wildlife species as well 
as for meeting the public's needs to hunt, fish, and observe wildlife.
    Question. What is the preliminary cost to acquire 120,078 acres in 
some of the most fertile crop land in the United States? How much do 
you anticipate paying on a per acre basis?
    Answer. Because the timing, availability of land, and mixture of 
conservation easements or other land protection options versus fee 
title acquisition are unknown, the Service has no ability to predict to 
total cost that would result from a boundary change. The average cost 
at this time for a fee title acquisition for an acre of private land 
within the 5-year floodplain is approximately $2,500.
    Question. How long do you anticipate it will take to acquire all 
120,000 acres?
    Answer. Many of the acres identified within this proposal may never 
be acquired depending on funding, willing sellers, and other Service 
acquisition priorities. We anticipate over the next 10 years, the 
projected increase from lands acquired in this proposed 120,000 acre 
expansion area would likely be less than 10,000 acres.
    Question. Of the 120,000 acres, how many would be acquired through 
fee title?
    Answer. The amount of acreage that may be acquired through fee 
title will depend upon the availability of willing sellers and funding. 
The Service intends to acquire parcels in conservation easements and 
fee title to provide the most flexibility in managing priority lands 
and working with willing landowners. However, we may fulfill our 
management goals by working with landowners to acquire long-term 
leases, cooperative agreements, or memorandum of agreements. The 
Service also will consider donations and exchanges to protect lands 
within the proposed expansion areas.
    Question. Does the Fish and Wildlife Service normally print the 
names and land descriptions of property they are interested in 
acquiring in a Draft Environmental Assessment Document for the 
expansion of a national wildlife refuge?
    Answer. The Service includes property identification information in 
its planning documents to inform a landowner that his/her property 
falls within a proposed acquisition boundary. We generally identify 
private land by the landowner's last name, first name and then a number 
that is usually dependent on how many tracts are owned by the 
landowner. We obtain the property identification information from 
public records that are often readily available through State and local 
government online data bases.
    Question. It is my understanding that the Service is precluded from 
negotiating with land owners whose property is not within an existing 
refuge boundary. Is that correct? Is that based on a statutory 
restriction or regulations issued by the Fish and Wildlife Service?
    Answer. By law, the Service must purchase lands within the 
identified boundaries. However, Pub. L. 99-646 requires the Service 
(all government agencies) to acquire lands outside boundaries as part 
of acquisitions for lands inside boundaries when the lands outside the 
boundary would be an uneconomic remnant for the landowner.
    Question. The Service indicates that it purchases property from 
``willing sellers''. Has the Service ever used condemnation authority? 
Does the Service still have condemnation authority?
    Answer. The Service, like other Federal agencies, has the power of 
eminent domain. As a matter of policy, the Service only acquires land 
from willing sellers. The Service has not used adverse condemnation 
since the 1980s.
    Occasionally, the Service uses ``friendly condemnation'' to clear 
title when ownership is not clear. Sellers consent to friendly 
condemnations in the interest of having a court determine ownership, 
and they are not adversarial proceedings.

    The Service's three most recent friendly condemnations were:

    1. Umbagog NWR, March 2012--The Service used a friendly 
            condemnation to clear title when the ownership of a \1/36\ 
            interest in a 156-acre property was not clear. The Society 
            for the Protection of New Hampshire Forests (SPNHF), which 
            owned a \35/36\ interest in the property, requested the 
            friendly condemnation to have a court determine ownership, 
            after both the Service and the SPNHF were unable to 
            identify the owner of the \1/36\ interest.

    2. Stewart B. McKinney NWR, February 2003--The Service used a 
            friendly condemnation to remove 1955 deed restrictions.

    3. Lower Rio Grande Valley NWR, January 1998--The Service used 
            friendly condemnation to determine ownerships in an 11,950-
            acre acquisition from the Resolution Trust Corporation 
            (RTC), the U.S. Government entity charged with liquidating 
            assets from insolvent savings and loan associations.

    Question. Are there any restrictions on a landowner donating their 
property to the Service whether it is in or out of a refuge boundary?
    Answer. 16 U.S.C. 742f(b) authorizes the Secretary of the Interior 
to accept any gifts, devises, or bequests of real and personal property 
for the benefit of the Fish and Wildlife Service. This authorization 
does not require that the real property be located within approved 
acquisition boundaries. It is the Service's policy to not retain 
donated non-program real property for more than 1 year, 342 FW 5(F)(3), 
and, in disposing of it, to give first consideration to exchange. 342 
FW 5(F)(2).
    Question. Has any of the property identified within the 120,000 
acre expansion been designated as critical habitat for any listed 
species?
    Answer. No. None of the land within the proposed expansion has been 
designated as critical habitat.
    Question. Where does the acquisition of additional land for 
Chickasaw and Lower Hatchie National Wildlife Refuges rank under the 
Service's annual Land Acquisition Priority List? What is the basis of 
that ranking?
    Answer. Chickasaw NWR and Lower Hatchie NWR ranked 24th and 32nd, 
respectively, on the Service's fiscal year 2014 LAPS list. Both refuges 
scored highly in the LAPS Fisheries Component, because they support 
nursery, spawning, and migration life cycles for anadromous fish with 
declining populations, including the alewife, Alabama shad, and 
blueback herring. Both refuges scored well in the LAPS Endangered 
Species component, because the refuges and nearby habitat support 
greater than 5 percent of the entire Mississippi River basin population 
of the federally listed least tern, as well as populations of the 
federally listed pallid sturgeon. The refuges scored moderately well in 
the Bird Conservation Component because they provide habitat for 33 of 
the 148 migratory bird species on the national list of Birds of 
Conservation Concern, which are bird species at risk for Federal 
listing. The refuges and the surrounding area also support wintering 
waterfowl populations in excess of 300,000, including American black 
duck, Canada geese, canvasback, lesser scaup, mallard, and northern 
pintail.
    Question. Is it true that the fundamental goal of the Refuge 
Revenue Sharing Act of 1935 is to compensate local counties for lost 
tax revenues when private property is incorporated within the refuge 
system?
    Answer. No, the goal of the Refuge Revenue Sharing Act (RRSA) is 
not to compensate counties for lost tax revenues. The purpose of the 
RRSA is to share revenues derived on refuge lands with localities. 
Economic use activities such as grazing, haying, trapping, and timber 
harvesting on refuge lands generate $6 million to $12 million in 
receipts per year. These receipts are deposited into the National 
Wildlife Refuge Fund (NWRF). Each year, the Service distributes these 
revenues, minus any associated costs, to counties with Service lands. 
If Congress appropriates funds for the NWRF, then the Service adds the 
amount of the NWRF appropriation to the funds it distributes to 
counties with Service lands.
    Question. Does the Refuge Revenue Sharing Act compensate for lost 
economic activity?
    Answer. See above. In addition, all rigorous economic analysis of 
which the Service is aware indicates that refuge acquisition and 
operation is an economic benefit to adjacent communities.
    Question. For instance, I have a 1,000 acre soybean farm and I 
employ 30 people to work on my property. If I sell my property to the 
Fish and Wildlife Service, there will be no farming and no employees. 
Does the program compensate for this lost economic activity? I purchase 
a new John Deere tractor every 3 years from a local dealer. Does the 
program compensate for those lost sales? How about the seed grain that 
I will no longer be buying?
    Answer. As noted in the previous answer, the Refuge Revenue Sharing 
Act does not compensate for lost economic activity but rather it 
provides for the sharing of revenues derived on refuge lands. While the 
acquisition of new refuge lands may result in loss of economic activity 
associated with previous land uses, refuge lands typically generate 
significant new economic activity from hunting, fishing, birding, 
hiking, other recreational activities, and associated tourism 
expenditures in local economics. For an analysis of the economic impact 
of recreational and other uses of Interior Department lands see the 
U.S. Department of Interior Economic Report for Fiscal Year 2012 at: 
http://www.doi.gov/ppa/economic_analysis/upload/FY2012-DOI-Econ-Report-
Final.pdf.
    Question. What about the wages I paid to my employees? Are those 
factored into the county entitlement payment?
    Answer. See above.
    Question. During the two public meetings on the proposed refuge 
expansion were there any representations made that locally affected 
counties would be compensated for lost tax revenues under the Refuge 
Revenue Sharing Act? Please explain any promises or commitments that 
were made at those meetings.
    Answer. The Service presented information on revenue sharing 
payments for the past 5 years at all scoping and public meetings. The 
payment information was specific to the four counties affected by the 
proposed expansion. No promises or commitments were made relative to 
the amount of future revenue sharing payments.
    Question. What is the current operations and maintenance backlog 
within the six national wildlife refuges in Tennessee? How many of 
these projects are ``mission critical''?
    Answer. There are 82 mission critical operational or resource 
management projects identified for all seven Tennessee refuges, 
totaling $9 million. The current maintenance backlog for Tennessee 
refuges totals $90.7 million.
    The U.S. Fish and Wildlife Service has been working to refine our 
processes associated with deferred maintenance cost estimating and are 
making a concerted effort to reduce the National Wildlife Refuge 
System's deferred maintenance backlog. At the end of fiscal year 2012 
the National Wildlife Refuge System's deferred maintenance backlog was 
at $2.4 billion and at the end of the third quarter of fiscal year 2013 
we officially reported a backlog of $1.75 billion. This is an overall 
reduction of $650 million.
    Question. How many individuals visit the Chickasaw National 
Wildlife Refuge each year? What kind of wildlife dependent activities 
are available at this refuge?
    Answer. Chickasaw National Wildlife Refuge welcomed approximately 
78,500 visitors in fiscal year 2012. Visitors may hunt, fish, and 
observe and photograph wildlife on the Refuge.
    Question. How many individuals visit the Lower Hatchie National 
Wildlife Refuge each year? What kind of wildlife dependent activities 
are available at this refuge?
    Answer. Lower Hatchie National Wildlife Refuge welcomed 
approximately 71,000 visitors in fiscal year 2012. Visitors may hunt, 
fish, and observe and photograph wildlife on the Refuge.
    Question. What commitment can you make that hunting, fishing, 
wildlife observation and the other three forms of wildlife dependent 
recreation will be available on all of the lands purchased with fee 
title under the expansion plan?
    Answer. Compatible recreational opportunities will be provided on 
acquired land in accordance with the National Wildlife Refuge System 
Improvement Act and Service Policy and Regulations. Chickasaw and Lower 
Hatchie National Wildlife Refuges are open to hunting and fishing in 
accordance with State regulations. Additionally, the Refuges are open 
to the other wildlife-dependent priority use--wildlife observation, 
photography, and environmental education and interpretation--year round 
except for the seasonal closure of small areas for waterfowl use.
                                 ______
                                 
    Questions Submitted for the Record by The Honorable Stephen Lee 
   Fincher, a Representative in Congress From the State of Tennessee
    Question. Can the Service cite specific data that was used to draw 
the boundary lines?
    Answer. We relied on a range of science, data, and management plans 
to inform the proposed acquisition boundary. The North American 
Waterfowl Management Plan, Partners in Flight data, and wildlife 
management plans such as the Service's comprehensive conservation plans 
and the West Tennessee Wildlife Resources Conservation Plan were used 
during this major biological collaborative planning effort. The Service 
also incorporated information from multiple Federal and State partners, 
including the Tennessee Wildlife Resources Agency that manages a number 
of wildlife management areas in western Tennessee, to identify the 
habitat needs for priority biological resources. We also took into 
account science and wildlife objectives developed by conservation 
organizations such as Ducks Unlimited and the Tennessee chapter of the 
Nature Conservancy.
    Question. What areas will hunters and fishermen not be allowed 
access, and do you see this changing over the course of the boundary 
expansion plan?
    Answer. Areas within the proposed expansion boundary will be open 
to the public with the exception of limited seasonal sanctuaries 
necessary to reduce disturbance to wintering waterfowl.
                                 ______
                                 
    Questions Submitted for the Record to Steve Patrick, Assistant 
  Executive Director, Field Operations, Tennessee Wildlife Resources 
                                 Agency
   Questions Submitted for the Record by the Honorable John Fleming, 
   Chairman, Subcommittee on Fisheries, Wildlife, Oceans and Insular 
                                Affairs
    Question. On Page 1 of Ms. Kelley's testimony, she highlights the 
fact that Tipton County will lose $40 million annually if the Service 
is successful in acquiring 38,000 acres of agricultural lands in her 
county. How is the State of Tennessee going to replace that economic 
activity?
    Answer. This statement assumes that of the 38,000 acres of 
agricultural land within the acquisition boundary that all of it would 
be taken out of production, which is not the case. The Fish and 
Wildlife Service (FWS) has a history of leasing agricultural land on 
their wildlife refuges and there is no reason to believe that would not 
be the case in Tipton County. Local farmers who lease agricultural land 
from the FWS will purchase their seed, fuel, fertilizer and chemicals 
from local merchants.
    All National Wildlife Refuges have recreational programs that 
attract people who enjoy wildlife related recreation. In Tennessee, 
wildlife-watching participants are the single largest group. A 2011 
National Survey of Fishing, Hunting and Wildlife-Associated Recreation 
estimated that 787,000 residents and non-residents participated in 
wildlife watching away from their home, spending over $498,000,000 
dollars.
    One can assume with some of the 38,000 acres of agricultural land 
still in production and wildlife related recreational programs in 
place, which will attract people from outside of Tipton County; that 
the local economy will not be negatively impacted but could actually be 
positively impacted by recreational dollars from outside the County 
being spent in the County.
    Question. Mr. Patrick, do you believe that in order to save the 
70,000 acres of agricultural lands in Haywood, Lauderdale and Tipton 
counties the Federal Government must own this land?
    Answer. According to the American Farmland Trust, Tennessee is 
among the top 10 States in conversion of farmland to development. More 
than 4 percent of the State's total farmland has been converted to 
urban use and lost to the production of food, fiber and wildlife 
habitat. If population growth models are accurate, that percentage will 
only grow over the coming years.
    For farmers who will not pass along their land to the next 
generation, their land is their retirement investment. So when the time 
comes to stop farming and retire, the most money to be made is most 
often to sell to residential or commercial interest. In other cases, 
the farm that passes to the next generation also ends up being sold to 
residential or commercial interest.
    The preferable alternative for many landowners in both of these 
cases; is the ability to sell their land for fair market value to the 
Federal Government and thereby protecting it from future development. 
If the only alternative is to sell to residential or commercial 
interest, Tennessee will continue to loose productive agricultural land 
to development.
    Question. Are you familiar with the farmers that live in western 
Tennessee? How would you describe their conservation ethic?
    Answer. Farmers in west Tennessee have strong ties to the land and 
when conservation practices are economically practical they are ready 
to implement those practices. Market prices, production cost and 
weather put all farmers under extraordinary pressures to remain a 
profitable business. It is understandable that if conservation 
practices don't improve the bottom line that they receive minimal 
consideration. Every practice on a farm must contribute to the overall 
profitability and well-being of the business.
    Question. Is there any law today that prevents the State of 
Tennessee or your agency from negotiating conservation easements with 
landowners in western Tennessee? Can you accept donations of land? Can 
the State purchase through fee title private property? Does the State 
ever use imminent domain?
    Answer. There is no law which would prevent the State of Tennessee 
or the Tennessee Wildlife Resources Agency from negotiating 
conservation easements. However, these would have to be donated 
easements. The only dedicated funding available for purchase of 
easements or fee title acquisition is through the State's Wetland 
Acquisition Fund and all of those properties must meet the statutory 
classification of wetlands. Any other acquisition would require a 
specific appropriation by the Tennessee General Assembly or in the case 
of the Tennessee Wildlife Resources Agency a specific appropriation by 
the Tennessee Fish and Wildlife Commission.
    The State and TWRA have accepted donations of land and both have 
purchased private land through fee title purchases.
    Imminent domain has been rarely used in Tennessee and when it has, 
it has been associated with highway projects. The State has not used 
imminent domain in the conservation of wildlife habitat.
    Question. What do you believe will be the per acre price to 
purchase by fee title the 70,000 acres of agricultural lands identified 
in Haywood, Lauderdale and Tipton counties?
    Answer. Our Real Estate Division estimates that agricultural land 
can on average sell as follows:

    Lauderdale--$2,500-$3,000 per acre.
    Tipton--$2,500-$3,000 per acre.
    Haywood--$2,700-$3,200 per acre.

    Question. How about the 27,000 acres of bottomland hardwood forest? 
What is the cost per acre of this land?
    Answer. Our Real Estate Division estimates that depending on the 
quality of the timber, hardwood forest can on average sell as follows.

    Lauderdale--$900-$1,200 per acre.
    Tipton--$1,300-$1,500 per acre.
    Haywood--$900-$1,200 per acre.
                                 ______
                                 
Letter Submitted for the Record From Virgil and Joyce Coats, Burlison, 
                               Tennessee
                                                     June 28, 2013.
Congressman Stephen Fincher,
8th Congressional District of Tennessee.
    Dear Stephen:

    My family owes land in Tipton County. We are against expansion of 
the Chickasaw and Lower Hatchie Refuge for a number of reasons. The 
plan by the U.S. Fish and Wildlife to purchase 120,078 acres in Dyer, 
Tipton, Lauderdale and Haywood Counties would have a negative impact on 
the economy of those counties.
    Tipton County currently has 144,000 acres in commercial 
agriculture. This plan would purchase around 38,000 acres in Tipton 
County alone. That would be approximately one-fourth of our entire 
commercial agriculture production. This area includes our most highly 
productive farmland in Tipton County. The proposed area is not the 
usual targeted land adjacent to the rivers. At one point it lies from 
the Hatchie River up to the Covington Airport and even includes a 
parcel zoned in the Covington Industrial Development Board.
    Tipton County averages $8.13 per greenbelt acre in tax revenue. 
Lauderdale County is currently getting $2.90 per acre from USFW revenue 
sharing in lieu of taxes and that figure has been decreasing on a 
yearly average. Lauderdale currently has 27,000 acres owned by USFW and 
17,000 acres owned by Tennessee Wildlife agencies. Tipton County 
currently has around 5,000 acres held by USFW. Neither county can 
afford to lose these valuable interior farmland s due to loss of tax 
revenue and dollars generated by commercial agriculture. This would 
alter Tipton County in a negative way as all who currently live and 
work around these refuge areas know that they do not generate income as 
USFW claim they do. Many of our neighbors have experienced what ``being 
a neighbor'' to USFW can cost in our freedom to use our own lands in 
the manner we see fit. ``Wildlife protection legislation'' can prohibit 
use of certain pesticides on privately held farmland due to ``run off'' 
onto USFW lands. Also drainage problems caused by USFW practices can 
cause privately held lands to become ``wetlands.''
    Private landowners care about their land and want to do right by 
it. Nobody knows a piece of land quite like the person who owns it and 
spends time on it regularly. Let's not increase the Federal 
Government's role in purchasing our private land. As Milton Friedman 
once said, ``If you put the Federal Government in charge of the Sahara 
Desert, in 5 years there'd be a shortage of sand.''
            Sincerely,
                                    Virgil and Joyce Coats.
                                 ______
                                 
      Prepared Statement of Gilbert M. Conyers, Ripley, Tennessee
    Sir, I am greatly opposed to the acquisition of land by the U.S. 
Fish and Wildlife in Lauderdale County of Tennessee. This is a county 
with few jobs and little commerce and continues to be one of the 
poorest counties in Tennessee per capita. Good farm land and/or any 
land with future potential commerce is county taxable. The U.S. Fish 
and Wildlife's purchase of land would stop this benefit to our county 
as well as render much of the land inaccessible because of their out of 
control restrictions in the name of wildlife. As a record, land 
acquired by this agency has brought little or no benefit to the 
effected citizens in other areas.
    Their purported claims of area benefit do not hold up to past 
records. There is no additional need for this type of land use in 
Lauderdale since land restricted to wildlife is above the national 
average in this area. I believe there is a great need to protect our 
natural resources and wildlife, but allowing the U.S. Government to 
continue purchasing land under the name of wildlife without benefit of 
the local citizens is wrong.
    Please do NOT support the land acquisition by the U.S. Fish and 
Wildlife Service.
                                 ______
                                 
            Letter Submitted for the Record From Randy Cook
                   U.S. Department of the Interior,
                                 Fish and Wildlife Service,
                                   Dyersburg, TN, December 4, 2012.

            West Tennessee National Wildlife Refuge Complex

    Dear Sir or Madam: 

    To meet the approved wildlife management and public use goals and 
objectives of Chickasaw and Lower Hatchie National Wildlife Refuges, 
the U.S. Fish and Wildlife Service (Service) is proposing to expand the 
acquisition boundaries of these two Refuges. The proposed acquisition 
boundary generally extends from the eastern boundary of Hatchie Refuge 
westward along the Hatchie River (encompassing the 5 year floodplain) 
to Lower Hatchie Refuge, then north from Lower Hatchie Refuge to the 
Obion and Forked Deer Rivers north of Chickasaw Refuge. We are 
contacting you, as well as other landowners in the proposed acquisition 
area, to inform you that your property appears to lie within the 
proposed expansion area.
    Approval of the proposed expansion will give the Service the 
opportunity, depending on funding, to negotiate with you for the 
purchase of your property should you decide to sell. Please be advised 
that the policy of the Service is to acquire land only from willing 
sellers; this is not a plan to take land through condemnation or by any 
other means other than purchasing lands from willing sellers.
    To ensure that all interested parties have the opportunity to 
gather additional information and or comment on the proposed 
acquisition boundary expansion, we will be conducting two public 
meetings in December; the first meeting will be held on December 11, 
2012, at the Tennessee Technology Center in Ripley, TN at 6 p.m., and 
the second meeting will be conducted in the basement of the Brownsville 
Chamber of Commerce in Brownsville. TN at 6 p.m. on December 12, 2012. 
If you would like to learn more or comment on the proposed expansion, 
please plan to attend one of the meetings and or contact this office at 
the above address. I can also be reached at 731-287-0650 or by email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="06746768627f596569696d466071752861697028">[email&#160;protected]</a>
            Sincerely,
                                                Randy Cook,
                                                    Project Leader,
                                            West Tennessee Refuges.
                                 ______
                                 
        Prepared Statement of Larry Davis, Covington, Tennessee
    Dear Congressman, I feel strongly that the USFW plan to purchase 
Tipton County land is a long term disaster which does not need to 
happen! This is productive farm and forest land which should stay in 
private hands. We have too much control by the U.S. Government already! 
This eminent domain policy should be tabled forever! Please do all you 
can to prevent this action. Thank you for efforts.
                                 ______
                                 
               Prepared Statement of Bonnie Featherstone
     proposed expansion plan for national hatchie wildlife preserve
    I know that a lot of farmers and landowners, like your family are 
against this expansion but there are a lot of us who own land along the 
Hatchie which is within the expansion plan would like to see this plan 
go forward and get funding by Washington for this expansion plan. 
Please consider everyone in your decision to vote on this and let this 
pan be approved for funding.
                                 ______
                                 
           Letter Submitted for the Record From James F Knox
                              1635 Poplar Grove Rd,
                                           Halls, TN 38040,
                                                    March 23, 2013.
Honorable Steven Fincher,
117 North Liberty Street,
Jackson, TN 38301.
    Dear Representative Fincher: 

    I oppose the expansion of the Chickasaw and lower Hatchie National 
Wildlife Refuges. I do believe that the Federal Government owns more 
than enough land. I understand that the U.S. Fish and Wildlife Service 
has made public a proposal with the intent to buy from willing sellers 
120,078 acres, primarily in Lauderdale, Tipton and Haywood counties, 
with the largest percentage being in Lauderdale County (my County). If 
this purchase becomes reality, over \1/3\ of Lauderdale County will be 
owned by Federal and State governments, whom do not pay property taxes 
on lands they acquire. Instead, counties are paid money in lieu of or 
instead of taxes. As more and more land is owned by the Federal 
Government, less and less, of a fixed fund that is divided among all 
federally purchased land will be available. Unless legislation is put 
in place to change this, as USFW purchases more land the amount paid 
per acre (in lieu of taxes) will be less and less.
    If the County has less per acre of ``in lieu of'' monies this will 
mean that my property taxes will be increased to help fund the county. 
I just wanted to let you know that I oppose this.
            Sincerely,
                                              James F Knox.
                                 ______
                                 

 [From the Lauderdale County Enterprise, Ripley, Tennessee, March 21, 
                                 2013]

                             Did You Know?
    Lauderdale County covers over 305,000 acres. The United States 
Government owns approximately 28,000 acres and the State of Tennessee 
approximately 25,000 acres for a total of 53,173 acres or app. 17.4 
percent of Lauderdale Co.
    The U.S. Fish and Wildlife Service (USFW) has made public a 
proposal with the intent to buy from willing sellers 120,078 acres, 
primarily in Lauderdale, Tipton and Haywood counties, the largest 
percentage being in Lauderdale County (according to their map). If this 
purchase becomes reality, over \1/3\ of Lauderdale County will be owned 
by Federal and State governments, whom DO NOT pay property taxes on 
lands they acquire. Instead, counties are paid money ``In Lieu of'' or 
instead of taxes.
    According to U.S. Congressman Stephen Fincher's office, last year 
these three counties received approximately 24 percent of the amount 
they were due for the in lieu of property taxes payment. The in lieu of 
payment is less than the property taxes had the land been privately 
owned, thereby raising everyone's taxes. According to information Mayor 
Rod Schuh received, ``In lieu'' monies come from a fixed fund that is 
divided among all federally purchased lands. Unless legislation is put 
in place to change this, as USFW purchases more land the amount paid 
per acre will be less and less.
    What does this mean to residents of Lauderdale County? Property 
taxes account for the majority of the revenue our county operates on. 
Local government, education, law enforcement, highway maintenance, 
along with many other public services will have to continue to be 
funded. How we ask?
    By the only means available, HIGHER TAXES. Higher real estate taxes 
will only serve to raise the cost of living for every person in the 
county, both property owner and renter.
    Agriculture is the largest industry in our county. The income lost 
from the removal of 40,000 + acres of farmland would take millions of 
dollars of spendable income from our local economy, not only affecting 
farmers, but businesses, and jobs,
    Lauderdale County has one of the lowest per capita income levels in 
the State, therefore we do not need the effects of the reduced revenues 
or higher taxes to further hinder our economic well being.
    At this time, when our Federal economic situation is in such a 
crucial state, we need to voice our opinions about the funds that our 
governmental agencies spend foolishly, The USFW proposal states they 
will pay market value for the property within the expansion proposal, 
yet haven't the funding to man, police, or manage the lands they 
currently own. This appears to be a typical case of the right hand not 
knowing what the left is doing.
    We encourage everyone as citizens of our county to contact your 
legislators and let them know we are opposed to the expansion of the 
``Chickasaw and Lower Hatchie National Wildlife Refuges.'' There will 
be petitions opposing the proposal at the Lauderdale County Farm Bureau 
in Ripley as well as the Farmer's Co-OP in Halls. Feel free to sign one 
of these. The comment period ends on March 29 so please act quickly.

           Comments to U.S. Fish and Wildlife may be sent to:

TOM GREENE
U.S. Fish and Wildlife Service
61389 Hwy. 434
Lacombe, LA 70445
Or emailed to: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="acefc4c5cfcddfcddb81c0c3dbc9dec4cdd8cfc4c0c9c9d4dccdc2dfc5c3c2eccadbdf82cbc3da">[email&#160;protected]</a>

We also encourage everyone to contact their legislators concerning 
thisissue.

Representative Steven Fincher
Dyersburg Office: (731) 285-0910
Jackson Office: (731) 423-4848

Senator Lamar Alexander
Jackson Office: (731) 423-9344
Memphis Office: (901) 544-4224

Senator Bob Corker
Jackson Office: (731) 424-9655
Memphis Office: (901) 683-1910
                                 ______
                                 
        ROD SCHUH
         County Mayor                 THOMAS CALDWELL
                                      County Attorney

                      LAUDERDALE COUNTY GOVERNMENT

                            100 Court Square

                        Ripley, Tennessee 38063

  RESOLUTION IN OPPOSITION TO THE PROPOSED 120,000 ACRE EXPANSION OF 
  CHICKASAW AND LOWER HATCHIE NATIONAL WILDLIFE REFUGES IN LAUDERDALE 
                    COUNTY AND SURROUNDING COUNTIES

        WHEREAS, the Lauderdale County Commission is concerned about 
our citizens future quality of life and economic well-being; and

        WHEREAS, the stated purpose of this land acquisition is to 
reduce soil erosion and silt build up in the Gulf of Mexico plus 
improve fish and wildlife resources; and

        WHEREAS, this legislative body feels that the purchase of 
120,000 acres of primarily excellent farmland will be a significant 
detriment to Lauderdale, Tipton, Haywood and Dyer counties economic 
future; and

        WHEREAS, we agree that landowners have the right to sell their 
land to the highest bidder, we feel the U.S. Government has an unfair 
advantage over the individual citizen in purchasing these lands; and

        WHEREAS, the U.S. Fish and Wildlife Service has only paid about 
25 percent of the true calculated ``In Lieu of Tax Fee'' formula on the 
28,300 acres they currently own in Lauderdale County with the State of 
Tennessee possessing 25,000 additional acres which totals 17 percent of 
Lauderdale County; and

        WHEREAS, when this proposed land expansion is finished the 
Government will own over \1/3\ <SUP>rd</SUP> of Lauderdale County 
resulting in higher property taxes for all citizens; and

        WHEREAS, the income earned by farmers and their purchases turns 
over in our community four to seven times improving citizens quality of 
life through support of small business and directly related 
agricultural industry creating approximately 500 jobs for our county; 
and

        WHEREAS, these government lands purchased with private money 
provides no allocation for maintenance of the land, its roads, water 
drainage issues, erosion problems and the lack of a quality tree plan 
do not show a love of the land currently possessed by the local farmer.

        NOW, THEREFORE, BE IT RESOLVED by the Lauderdale County Board 
of Commissioners, that the Lauderdale County legislative body is in 
opposition to the proposed expansion of Chickasaw and Lower Hatchie 
National Wildlife Refuges and requests that the U.S. Department of the 
Interior reevaluate and remove this proposed 120,000 designated acre 
expansion off of the top 50 refuge target list.

        BE IT FURTHER RESOLVED, that the County Clerk send a copy of 
this Resolution and Citizens Petition Against the Expansion to the U.S. 
Fish and Wildlife Service in Lacombe, Louisiana and also to U.S. 
Representative Steven Fincher, Senator Lamar Alexander, and Senator Bob 
Corker.

        RESOLVED this 25<SUP>th</SUP> day of March, 2013.

                               LAUDERDALE COUNTY, TENNESSEE

        ATTEST:

                                     ROD CHUH, COUNTY MAYOR
        LINDA SUMMAR, COUNTY CLERK
                                 ______
                                 
           Prepared Statement of Jeff Phillips, Covington, TN
    Congressman Fincher, I am writing you in regards to the further 
expansion of the Lower Hatchie National Wildlife Refuge as well as 
Chickasaw and any other lands purchased in west Tennessee to put into 
the refuge system. I am not a big land owner but I am a hunter and have 
three sons that hunt. We utilize both lower Hatchie and Chickasaw but 
it is no sportsman's paradise. As law abiding citizens we find access 
to the refuges to be difficult. Sure they are easy enough to simply 
access but so much of what the Government has is practically unusable 
because of what it takes to get there and get out with game. Because 
money to develop and maintain (that is to say properly manage the 
wildlife and ecosystem) the recently acquired lands are simply handed 
back over to nature to begin the primary stages of succession.
    It is my understanding one or two of the pumps used to pump up the 
water at the waterfowl refuge are in need of replacement or 
reconditioning demonstrating the Government cannot maintain what it 
already has. Saying this is being done for sportsmen is not true. When 
it comes to big deer and large numbers of ducks, private lands far out 
perform Government held lands. There are several reasons for this. One 
is the development and maintenance of habitat. This work is done at the 
land owner's or lessee's expense not the Government and stimulates 
local economy by employing local people to work on it and buying local 
supplies to build on it. Turning it over to the U.S. Government only 
means nothing positive will ever happen again. Poachers will eliminate 
the good stuff and nature destroy the other work done on habitat. 
Private land owners take pride in there land because it is theirs! They 
clean it up and protect it because they own it. Further Government 
intrusion is like making our natural areas section 8 housing. When it 
is everybody's--it becomes nobody's and when it is not yours you just 
don't take care of it as well. The Fed's can't monitor and maintain 
what they have. If they are truly concerned about a sportsman's 
paradise, then quit taking land and empower and encourage private 
development while taking not of what they are doing and copy it on 
currently owned land with the money you save from a feeble attempt at 
management while grabbing as much as possible. The way I see it and I 
use the land we have, this is a complete waste of money unless there is 
an ulterior motive not being talked about. Congressman Fincher, I am 
against the further acquisitions of lands along the lower Hatchie 
River, the Mississippi and its tributaries in west Tennessee.
                                 ______
                                 
Letter Submitted for the Record From David Templeton, Templeton Farms, 
                          Brighten, Tennessee
                                                    March 20, 2013.
Tom Greene, Refuge Planner,
61389 Hwy 434,
LaCombe, La, 70445.
    Dear Sir,

    USFWS has recently proposed an expansion of the refuge system in 
west Tennessee. The proposal is to acquire some 121,000 acres of prime 
agricultural and forest land along the Hatchie River in Lauderdale, 
Tipton and Haywood Counties.
    This letter is to state my total opposition to this project for a 
variety of reasons.
    First, this land is prime farmland that by my estimate pumps $150 
million annually in the economies of this area. My neighbors and I 
depend on this land for our livelihoods and this money is vital to the 
prosperity of these counties and to west Tennessee as well. I have 
heard it said that for every dollar a farmer receives for his 
production, that dollar will earn over three to seven times in the 
local economy, therefore the negative impact to these counties could be 
as high as $750 million to $1 billion!
    In addition, I estimate nearly $1 billion (greenbelt only) will 
come off the property tax rolls of the affected counties and in 
Tennessee our counties are heavily dependent on property taxes to fund 
operations, primarily schools. The amount of income received by 
counties in lieu of taxes is paltry by comparison and dwindling as it 
gets divided over more and more acres!
    The Federal and State refuge systems are a success story of which I 
am proud. I hunt on them regularly and I see relatively few hunters, 
ect. on them. The nearly 150,000 acres of Federal refuge lands in west 
Tennessee (along with 150 million acres nationally) and 1.5 million 
acres of Tennessee Wildlife Resource lands, (TWRA) owned by the State, 
are more than adequate to accomplish your stated goals of wildlife 
preservation, hunting, bird watching etc. When you add millions of 
acres owned by the Park Service and other agencies the Federal 
Government owns 30 percent of the land area and 67 percent of the 
marine area of this country!
    In addition USFWS efforts to convert farmland back to hardwood 
forest in Lauderdale County have been unsuccessful. At a recent public 
meeting, pictures were shown promising beautiful cypress lakes, 
hardwood forests and very serene settings. In reality, on the land 
currently managed by USFWS cottonwood, willow, river birch and vines 
and briers have choked out any effort to establish hardwoods! The 
agency has ample equipment to maintain the land but allows the land to 
grow up in unsightly brier thickets. USFWS should manage what the 
agency currently owns and make it usable by the public instead of 
buying more land purportedly in the name of sound science!
    As stated, the refuge system is a success story but it is ``Mission 
Accomplished'' at least in the west Tennessee. The act which 
established the refuge system gave it perpetul funding separate from 
general funds. Will USFWS ever have enough land?
    With all of the acres currently owned by the USFWS, the Park 
Service, TWRA, other Federal and State agencies and the Nature 
Conservancy, we are past the point where the public good has been 
served an USFWS is becoming another overreaching arm of the Federal 
Government.
    With our irresponsible Federal debt, the law needs to be changed to 
return procurement funds back to help balance our budget!
    Lastly, a burgeoning world population, (admittedly the reason to 
set land aside) is reaching a level where every acre will be needed to 
feed the world's population. Population growth takes more and more 
farmland for housing, roads, buildings and recreation. This leaves less 
land on which to grow the food to feed the world. Farmers are being 
told they will have to grow more food in the next 40 years than has 
been grown in the last 10,000 years,
    As a farmer, I see firsthand how close demand for food and fiber is 
getting to catching up with supply. This has been brought to light by 
the recent drought and resulting food shortages causing commodity and 
food prices to soar. This may be the new reality. Only technological 
improvements have helped the farmer to feed an increasing population on 
less and less acres to date.
    In Summary, I am opposed to this project as the land is better used 
by providing continuing income to the farmer, the landowner, the 
equipment dealers, the county and city governments and I could go on. 
Thereby maintaining a strong rural economy in the area affected by this 
project proposal. Procurement funds would be better utilized to help 
reduce our national debt. Acquisition of this land and removing its 
potential to the local economies is irresponsible and should be removed 
from consideration.
    In closing, I attended three meetings concerning this proposal (one 
by Rep. Stephen Fincher) and the attendees of each meeting were 
universally opposed to this project. West Tennessee does not want this.
            Sincerely,
                                        David B. Templeton,
                      West Tennessee Farmer, Hunter, and Sportsman.
                                 ______
                                 
 Letter Submitted for the Record From the Tennessee Soybean Association
                                                      July 1, 2013.
The Honorable Stephen Fincher,
U.S. House of Representatives,
Washington, DC 20515.
    Dear Representative Fincher:
    I am writing in regards to the Initiative by the U.S. Fish and 
Wildlife Service to expand the boundaries of the Chickasaw and Lower 
Hatchie Refuges, The Tennessee Soybean Association is against enlarging 
the refuge, taking productive farm land out of operation, and reducing 
the tax roll for those counties,
    The arguments by Mrs, Charlotte Kelley, Lauderdale County Mayor Rod 
Schuh, and Jeff Aiken were very compelling and expressed the farm 
sentiment precisely, We also share your and Representative Duncan's 
concerns about increasing our national debt.
    Thank you for requesting the hearing, It was wonderful to see the 
Committee work through the hearing by the Internet.
    Please stand firm in your and our opposition in the expansion of 
these refuges,
            Sincerely,
                                               Mike Holman,
                          President, Tennessee Soybean Association.
                                 ______
                                 

                   Total Deferred Maintenance by State
------------------------------------------------------------------------
                                                   #
                    State                       Projects   Sum of Costs
------------------------------------------------------------------------
AK...........................................        307     102,887,543
AL...........................................        206      85,210,091
AR...........................................        581     182,396,127
AZ...........................................         89      36,048,484
CA...........................................        435      62,113,172
CO...........................................        122      14,553,176
CT...........................................         10         807,787
DE...........................................         48      10,873,000
FL...........................................        609     196,337,659
GA...........................................        251      58,803,638
GU...........................................         11       2,232,764
HI...........................................        129     197,102,322
IA...........................................         58     180,600,085
ID...........................................        140      22,284,097
IL...........................................        626     103,581,356
IN...........................................        174      12,671,174
KS...........................................        108       5,578,913
KY...........................................         23       4,346,098
LA...........................................        474      91,821,392
MA...........................................         45      11,310,090
MD...........................................        139     100,128,372
ME...........................................         57      10,753,610
MI...........................................        172      29,897,655
MN...........................................      1,190     100,518,305
MO...........................................        241      37,127,950
MS...........................................        333      61,513,927
MT...........................................        466     212,301,524
NC...........................................        459     117,712,868
ND...........................................        751      41,919,566
NE...........................................        329      22,396,326
NH...........................................         79      13,118,194
NJ...........................................        104      14,551,155
NM...........................................        102      11,638,048
NV...........................................         80      19,377,942
NY...........................................         85      10,386,662
OH...........................................         68       6,736,773
OK...........................................        163      18,704,745
OR...........................................        513      86,905,676
PA...........................................         26       2,616,413
PR...........................................        137      46,732,840
RI...........................................         25       1,904,514
SC...........................................        275      85,466,307
SD...........................................        418      17,436,884
TN...........................................        357      93,899,507
TX...........................................        352      66,331,376
UT...........................................         91      10,953,759
VA...........................................        133      30,007,245
VT...........................................         15       1,533,385
WA...........................................        433      80,757,021
WI...........................................        377      30,154,745
WV...........................................         20       2,987,730
WY...........................................         56       9,315,072
                                              --------------------------
    Total....................................     12,492   2,706,402,236
------------------------------------------------------------------------


                    Total RONS Funding Needs by State
------------------------------------------------------------------------
                                                   #
                    State                       Projects   Total $ Need
------------------------------------------------------------------------
AK...........................................        351     $51,019,621
AL...........................................         95      $9,547,225
AR...........................................        120     $11,892,704
AZ...........................................        111     $12,522,761
CA...........................................        384     $49,671,548
CO...........................................         67      $6,811,128
CT...........................................         11      $2,08S,663
DE...........................................         23      $2,779,309
FL...........................................        288     $36,142,123
GA...........................................         86      $9,450,372
GU...........................................         14      $1,295,510
HI...........................................        177     $30,990,029
IA...........................................         83      $9,706,000
ID...........................................         70      $6,241,873
IL...........................................        101     $10,793,604
IN...........................................         38      $4,424,587
KS...........................................         38      $4,075,733
KY...........................................         11      $1,432,898
LA...........................................        217     $26,146,625
MA...........................................        107     $14,020,835
MD...........................................         47      $9,046,034
ME...........................................         54      $5,045,948
MI...........................................         37      $4,067,428
MN...........................................        270     $39,662,997
MO...........................................         65      $6,344,744
MS...........................................        132     $15,051,151
MT...........................................        130     $15,207,980
NC...........................................         99      $9,902,499
ND...........................................        360     $38,548,481
NE...........................................         57      $5,796,603
NH...........................................         36      $3,971,669
NJ...........................................         62      $7,619,108
NM...........................................         61      $6,427,922
NV...........................................         94     $13,980,950
NY...........................................         46      $4,742,674
OH...........................................         31      $4,537,861
OK...........................................         91      $9,197,957
OR...........................................        190     $21,651,460
PA...........................................         19      $1,920,495
PR...........................................         48      $5,547,697
RI...........................................         26      $2,586,932
SC...........................................         69      $7,571,886
SD...........................................        122     $12,694,620
TN...........................................         80      $8,629,218
TX...........................................        195     $22,006,211
UT...........................................         32      $3,268,421
VA...........................................         79      $8,489,316
VI...........................................          9        $871,100
VT...........................................         13      $1,121,566
WA...........................................        228     $30,217,642
WI...........................................        117     $14,631,311
WV...........................................         17      $1,411,003
WY...........................................         27      $3,260,924
                                              --------------------------
    Total....................................      5,349    $647,692,102
------------------------------------------------------------------------



                     REFUGE REVENUE SHARING PAYMENTS DYER             CHICKASAW        $10,782              $2,646
HAYWOOD          HATCHIE          $453,675             $113,312
LAUDERDALE       CHICKASAW        $801,576             $199,445
LAUDERDALE       LOWER HATCHIE    $275,398             $65,980
TIPTON           LOWER HATCHIE    $181,746             $44,023
                                 ---------------------------------------
    TOTALS       ...............  $1,723,177           $425,406
========================================================================
DID NOT RECEIVE                         $1,299,160
PERCENTAGE                              24 PERCENT
 RECEIVED


                   TENNESSEE NATIONAL WILDLIFE REFUGES             UNIT                  FEE TITLE ACRES          EASEMENTSCHICKASAW....................                20,374.61          5,387.90
CROSS CREEKS.................                    91.72  ................
HATCHIE......................                11,556.10  ................
LAKE ISOM....................                   360.84  ................
LOWER HATCHIE................                10,388.48          1,872.96
REELFOOT.....................                   560.43          7,847.27
TENNESSEE....................                   527.67              1.49
                              ------------------------------------------
    TOTALS...................                43,859.85         15,109.62
========================================================================
COST TO ACQUIRE PROPERTY BY
 FEE TITLE IN TENNESSEE......                 $39,606,497
TOTAL NATIONWIDE COST TO
 ACQUIRE BY FEE TITLE
 4,350,945 ACRES.............                $2,083,355,384
                                 ______
                                 
    The document listed below has been retained in the Committee's 
official files

    --Peition Against FWS/Hatchie Expansion Proposal, dated March 12, 
        2013

                                 [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
